<html>
<title> - H.R. 2918, DAKOTA WATER RESOURCES ACT OF 1999</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



             H.R. 2918, DAKOTA WATER RESOURCES ACT OF 1999

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                   SEPTEMBER 30, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-66

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______



                    U.S. GOVERNMENT PRINTING OFFICE
64-145 <l-ar/r-ar>          WASHINGTON : 1999

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              CALVIN M. DOOLEY, California
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH-HAGE, Idaho          PETER A. DeFAZIO, Oregon
GEORGE P. RADANOVICH, California     OWEN B. PICKETT, Virginia
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
GREG WALDEN, Oregon                  DONNA MC CHRISTENSEN, Virgin 
MIKE SIMPSOM, Idaho                      Islands
                                     GRACE F. NAPOLITANO, California
                  Robert Faber, Staff Director/Counsel
                   Joshua Johnson, Professional Staff
                      Steve Lanich, Minority Staff




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held Thursday, September 30, 1999........................     1

Statement of Members:
    Pomeroy, Hon. Earl, a Representative at Large in Congress 
      from the State of North Dakota.............................    67
        Prepared statement of....................................    68
    Vento, Hon. Bruce, a Representative in Congress from the 
      State of Minnesota, prepared statement of..................    47
    Cubin, Hon. Barbara, a Repesentative in Congress from the 
      State of Wyoming, prepared statement of....................    81

Statement of Witnesses:
    Chandler, James, Counsel, U.S. Section of the International 
      Joint Commission...........................................    59
        Prepared statement of....................................    61
    Conrad, Hon. Kent, Senator, North Dakota, U.S. Senate........    40
        Prepared statement of....................................    41
    Dorgan, Byron L., Senator, North Dakota, U.S. Senate.........    43
        Prepared statement of....................................    43
    Hall, Tex,...................................................    53
        Prepared statement of....................................    55
    Koland, Dave, Executive Director, North Dakota Rural Water 
      Systems Association........................................    62
        Prepared statement of....................................    63
    Martinez, Hon. Eluid, Commissioner, U.S. Bureau of 
      Reclamation, U.S. Department of the Interior...............    49
        Prepared statement of....................................    51
    Schafer, Hon. Edward T., Governor, North Dakota..............    34
        Prepared statement of....................................    37

Additional material supplied:
    City of Grand Forks, Grand Forks, North Dakota, prepared 
      statement of...............................................   100
    Wildlife Society, North Dakota Chapter, prepared statement of    91
    Standing Rock Sioux Tribe, prepared statement of.............    96
    Ventura, Jesse, Governor of Minnesota, prepared statement of.    81

Communications submitted:
    Furness, Bruce, Mayor, Fargo, North Dakota, prepared 
      statement of...............................................    85
    National Water Resources Commission, letter to Mr. Doolittle.    89
    Text of H.R. 2918............................................     2

 
             H.R. 2918, DAKOTA WATER RESOURCES ACT OF 1999

                              ----------                              


                      Thursday, September 30, 1999

                  House of Representatives,
                   Subcommittee on Water and Power,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2 p.m., in Room 
1334, Longworth House Office Building, Hon. John Doolittle 
[chairman of the Subcommittee] presiding.
    Mr. Doolittle. The Subcommittee on Water and Power will 
come to order. We are meeting today to hear testimony 
concerning H.R. 2918, the Dakota Water Resources Act of 1999.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T4145.001
    
    [GRAPHIC] [TIFF OMITTED] T4145.002
    
    [GRAPHIC] [TIFF OMITTED] T4145.003
    
    [GRAPHIC] [TIFF OMITTED] T4145.004
    
    [GRAPHIC] [TIFF OMITTED] T4145.005
    
    [GRAPHIC] [TIFF OMITTED] T4145.006
    
    [GRAPHIC] [TIFF OMITTED] T4145.007
    
    [GRAPHIC] [TIFF OMITTED] T4145.008
    
    [GRAPHIC] [TIFF OMITTED] T4145.009
    
    [GRAPHIC] [TIFF OMITTED] T4145.010
    
    [GRAPHIC] [TIFF OMITTED] T4145.011
    
    [GRAPHIC] [TIFF OMITTED] T4145.012
    
    [GRAPHIC] [TIFF OMITTED] T4145.013
    
    [GRAPHIC] [TIFF OMITTED] T4145.014
    
    [GRAPHIC] [TIFF OMITTED] T4145.015
    
    [GRAPHIC] [TIFF OMITTED] T4145.016
    
    [GRAPHIC] [TIFF OMITTED] T4145.017
    
    [GRAPHIC] [TIFF OMITTED] T4145.018
    
    [GRAPHIC] [TIFF OMITTED] T4145.019
    
    [GRAPHIC] [TIFF OMITTED] T4145.020
    
    [GRAPHIC] [TIFF OMITTED] T4145.021
    
    [GRAPHIC] [TIFF OMITTED] T4145.022
    
    [GRAPHIC] [TIFF OMITTED] T4145.023
    
    [GRAPHIC] [TIFF OMITTED] T4145.024
    
    [GRAPHIC] [TIFF OMITTED] T4145.025
    
    [GRAPHIC] [TIFF OMITTED] T4145.026
    
    [GRAPHIC] [TIFF OMITTED] T4145.027
    
    [GRAPHIC] [TIFF OMITTED] T4145.028
    
    [GRAPHIC] [TIFF OMITTED] T4145.029
    
    [GRAPHIC] [TIFF OMITTED] T4145.030
    
        <bullet>HR 2918 IH

    Mr. Doolittle. Today's hearing covers this Act, and it is a 
project that has provoked thousands of hours of debate over the 
last several decades. It is the most expensive water project 
this Subcommittee has considered in the last 5 years.
    In the past 2 years, while negotiations have been under way 
in North Dakota, I have remained neutral concerning the 
specific pro-
visions of the bill. I have consistently indicated that there 
were some issues we wanted to see addressed, but that I 
remained sympathetic to the needs of the people of North 
Dakota.
    Today I am glad that we have such a comprehensive turnout, 
representing the political leadership of the State, for it 
gives me an opportunity to address an important issue 
concerning the future of this legislation.
    Over the last few months, the sponsors of this project have 
spent little time, frankly, working with our Subcommittee to 
address the issues we have raised. Some individuals interested 
in the advancement of this legislation have dissuaded witnesses 
who this Subcommittee has sought to testify concerning the 
legislation before us, and we have heard from several sources 
that it is the intent of the advocates of this bill to dismiss 
the concerns of this Subcommittee and have the project placed 
on some major end-of-the-session legislative package without 
separate committee and House action.
    Let me just be clear and direct about this. Such an 
approach would be ill-advised and opposed by this Subcommittee, 
and I would hope that there are members on both sides of the 
aisle who would join me in actively opposing such a course of 
action, should it be undertaken.
    I will be including for the record a letter from the 
Canadian Ambassador to the United States and testimony from the 
Governor of Minnesota strongly opposing the legislation in its 
current form. Both indicate opposition to the substance of the 
legislation, as well as to the lack of inclusion in the process 
that led to the current draft of the bill.
    I would have to say, based on my own experience, that they 
may have some legitimate concerns. I do not feel that the 
current witness list represents the true range of opinions 
concerning this project. For instance, with the understanding 
that there would be other witnesses here that would address the 
diversity of views, the National Audubon Society agreed to 
withhold their testifimony to keep the length of the hearing 
more manageable. Although they will not present oral testimony, 
they will submit written testimony and do remain strongly 
opposed to the legislation.
    While there are numerous technical details requiring 
attention, let me mention three major issues that I believe we 
must address prior to taking action on this legislation.
    One, the financing of the project in light of the 
traditional funding alternatives for Bureau of Reclamation 
authorizations must be adjusted. While I believe there are some 
legitimate concerns about how to handle expenditures for 
unusual portions of the project which have already been 
constructed, there are major portions of the proposed project 
that should be either reimbursable or financed through other 
mechanisms.
    Indeed, we specifically held a hearing on this subject 2 
months ago to highlight the need for developing a responsible 
approach, funding approach to these projects. When we look at 
the reality of the Federal budget, we have to realize we do not 
have the money there to simply start another new grant program 
to fund all the projects requested before this Subcommittee. 
For all you hear in the news about vast Federal surpluses, the 
reality is that we have enough money to maintain economic 
health and pay down a portion of our national debt.
    Two, this bill as currently drafted is so complex and 
poorly structured that it is nearly incomprehensible. We have 
been provided with a strike-out-and-add version of the 
underlying legislation that is to be amended by the bill before 
us today.
    Comparing that version, the bill that is before us today 
and the testimony of the witnesses, there are major 
discrepancies. For instance, there are provisions which some 
witnesses contend are reimbursable that are either clearly not 
reimbursable or that contain exemption clauses that render them 
likely to be nonreimbursable.
    Three, a tremendous amount of the authorization is not tied 
to any particular development project. Much of it is simply a 
preauthorization for the expenditure of hundreds of millions of 
dollars.
    With that, I would like to look forward to hearing the 
testimony, and I am going to recognize Mr. Dooley for his 
statement.
    Mr. Dooley. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing today to review H.R. 2918, the Dakota 
Water Resources Act of 1999.
    I wish to welcome our witnesses today. It is certainly a 
measure of the importance of this legislation to the people of 
North Dakota that we have here today with us both of our 
Senators, as well as the congressional representative from 
North Dakota.
    I am aware that there are serious water supply and water 
quality needs in North Dakota, and coming from an area in which 
water is in chronically short supply, I am very sympathetic to 
these efforts to address such concerns.
    Amending the Garrison Diversion Reformulation Act of 1986 
to better address these concerns, as H.R. 2918 does, may well 
be the most appropriate way to approach the problem. I look 
forward to today's hearing, during which we will hear more 
about this particular legislative proposal, and I also look 
forward to working with the chairman and my colleagues from 
North Dakota to achieve a longer term solution to the water 
supply needs of the people of North Dakota.
    Mr. Doolittle. Thank you.
    The Chair will recognize Mr. Pomeroy, who will introduce 
our guests to begin.
    Mr. Pomeroy. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing, and just by way of format, I would 
make some brief opening remarks and be joined by North Dakota's 
Governor, Ed Schafer, and our Senators when they get done 
voting and return, and then we will have a second panel in 
addition, with further testimony in support.
    Mr. Chairman, just to quickly address a couple of the 
concerns you have raised, we have believed that I negotiated in 
the past with you the witnesses to attend today from our part, 
and we agreed that Garrison Diversion Conservative District 
would not be attending so we might keep the hearing length 
short and not be redundant.
    It certainly has not been my intention to exclude any of 
you from any perspective, although, further, I did not view it 
as my responsibility to put on the panel the project's major 
detractors. Obviously, I am for the project. What we have 
assembled for you in support of the project are the various and 
diverse component parts of this collaborative effort producing 
this vital project for North Dakota.
    Similarly, we have requested that this hearing be held in 
July. I certainly, and the chairman has been accommodating, so 
I'm not saying that to carp, but in no event have I tried in 
any way to exclude the primacy of this Committee in considering 
this very important matter to North Dakota.
    What is more, I have enjoyed working with your staff, Mr. 
Faber, who has gone over this legislation line by line, in 
addition to the minority staff, two of which recently came to 
North Dakota, Mr. Lanich and Mr. Cramer.
    While visiting a farmstead in the southwestern part of the 
State, they were given a test, three bottles: Which is the 
Pepsi, which is the tap water, which is the coffee. They could 
not pass the test. I wonder if you can?
    Let me make it short, this is the tap water. That is why 
this project is so very, very important.
    The project, as will be explained, is a consensus plan born 
initially out of North Dakota's participation in the Pick-Sloan 
project. Per that project, we were hosts to two reservoirs 
resulting from dams placed on the Missouri River. A flood the 
size of Rhode Island visited North Dakota, and has not left. We 
lost over 500,000 acres of bottom land. In exchange for that, 
we were promised a water project. The initial version of it was 
a grand irrigation type project. That was obviously something 
not concluded, and the plan was reformulated in a 1986 Act.
    Now, as we look at it, we have agreed across the political 
spectrum, rather than look back, let us look forward and 
evaluate whether this design best meets our needs in the 21st 
century. It does not. We have advanced this plan, which 
involves greater consensus than we have ever had on this 
important water project, including very highly credible 
representatives of the environmental community; in addition, at 
a total authorized cost of $500 million below the existing 
authorization.
    The bill before you represents cost-effective, treaty-
compliant, and environmentally sound water policy, and brings 
fair and reasonable closure to the commitment by the Federal 
Government to the State of North Dakota.
    Allow me to introduce North Dakota's Governor, Governor Ed 
Schafer.
    Mr. Doolittle. Governor Schafer.

  STATEMENT OF HON. EDWARD T. SCHAFER, GOVERNOR, NORTH DAKOTA

    Governor Schafer. Thank you, Congressman Pomeroy. Mr. 
Chairman and members of the Subcommittee, I appreciate the 
opportunity to be here today to once again testify in support 
of the Dakota Water Resources Act.
    I promised I will be brief. I will try not to duplicate the 
testimony. But I do have a couple of important points on this 
legislation and what it means to our State of North Dakota.
    This Dakota Water Resources Act unlocks North Dakota's 
future. It is an indispensable element for water supply, for 
economic development, for agriculture, recreation, tourism, and 
wildlife enhancements in our State.
    Why, I suppose you ask, are we looking for this project? I 
think we can point to the fact that North Dakota suffers from a 
lack of an adequate water supply of good quality water for 
drinking, and in many places we have an insufficient quantity 
of water to meet the needs of our communities.
    I think the solution to this challenge is the delivery of 
water from the Missouri River throughout the State, 
particularly to the Red River Valley, which is on the 
easternmost part of North Dakota. In fact, it encompasses the 
eastern third of our State.
    The drafters of the Act have asked everyone with interest 
in this legislation in our State to participate in developing 
an acceptable project for all interests involved. In fact, I 
find it very interesting that in a bipartisan approach, we have 
the congressional delegation, the Governor's administration, a 
unanimous resolution in the legislature on both sides, our 
wildlife, our environmental interests, and everybody is on 
board in North Dakota for this project.
    In that effort, I would also like to introduce our majority 
leader of the House of Representatives, Representative John 
Dorso, he is here with us today, who generated this unanimous 
resolution from our legislature. John is over here. Thanks for 
being with us, John.
    Mr. Doolittle. We welcome you, Mr. Dorso. You and I have 
met before on an earlier occasion, at last year's hearing, 
where you voiced strong support for the project.
    Governor Schafer. Thank you, Mr. Chairman.
    We have tried to engineer this project to meet the needs 
and to address the concerns that people have had with this 
project. We have scaled down what was originally a multi-
billion dollar federally-funded irrigation project, and that 
has disappeared into a management program for really the 
municipal, rural, and industrial water needs of our State.
    The new approach emphasizes supplying water to small 
communities, rural residents, Indian reservations, and cities 
that are in desperate need of quality, affordable, and reliable 
water supplies.
    This bill enhances the wildlife and natural resources. It 
requires strict compliance with all environmental laws and the 
Boundary Waters Treaties Act of 1909 between the United States 
and Canada. Acting responsible and as good neighbors to the 
peoples of Canada and Minnesota has always been a priority to 
the supporters of this legislation.
    Mr. Chairman, I appreciate your comments about including 
witnesses and other interested parties in this process, but I 
can tell you from my conversations with the ambassador in 
Canada, my conversations with the premier of Manitoba about 
this issue, whose province, obviously, would be affected, they 
have mentioned to me directly that they are unalterably opposed 
to this program. They are not interested in debate. They are 
not interested in facts or changes or new technology. This is 
just opposition, pure and simple. They will not move, as much 
as we have tried.
    I also had a chance to read the testimony and comments of 
Governor Jesse Ventura. I take exception to the things he said. 
I know he is a new Governor, and I certainly do not want to get 
into the wrestling ring with him over this, but really, these 
are pulled out of an old file from 10 and 15 years ago. They 
totally disregard the commitments that have been made in this 
new legislation. They totally disregard the new technologies of 
biota transfer with a buried pipeline and the opportunity to 
treat that water within drinking water standards as it moves 
across the Continental Divide.
    I appreciate the comments, but these are old and totally 
disregard what is going on today.
    The opponents of the legislation really have four major 
concerns. They say we must guarantee and prove beyond any doubt 
that harm will not occur to another water supply. Of course, 
that is impossible. Nobody can guarantee beyond a shadow of a 
doubt. But what we do guarantee is that we will comply with all 
regulations, all laws that are established by the Boundary 
Waters Treaties Act. We have two safeguards in the legislation, 
the compliance to the 1909 Boundary Waters Treaties Act will be 
determined prior to construction, and the Secretary of 
Interior, in consultation with the Secretary of State and the 
Environmental Protection Agency, must certify compliance before 
construction of any interbasin transfer system.
    I think the second concern is biotic transfer. As I 
mentioned, this is a big issue, but there has been for more 
than a decade an ongoing potential impact study going on by the 
interbasin biotic transfer study program. It is a cooperative 
program by the Universities of Manitoba and North Dakota. No 
credible scientific evidence has been found to identify 
specific foreign biota or any threat to these particular water 
resources. To be thorough, this Act does address those 
undocumented concerns by agreeing to deliver this by a buried 
pipeline of treated water that will result in a 99.99 percent 
removal of any virus. That is an extraordinary and 
unprecedented precaution.
    Third, some believe this is some kind of a back door 
approach to divert Missouri River water into another problem 
area that we have there of Devil's Lake. As you are also aware 
of that project, Devil's Lake has risen 25 feet in the last 6 
years. We are trying to desperately decrease that, not increase 
it with diverting water in there, I can assure you.
    The issues of flood control in an inlet intake, which are 
some peoples' concerns, are totally separated not only 
physically but by law.
    Fourth, there are some concerns about diversion causing 
harm to downstream Missouri States. I am not sure how that 
happens, but the diversion of the Missouri River water to the 
Red River-Red River Valley for this Act is less than 1 percent 
of the river flow.
    Now that I have outlined quickly here what this Act does 
not do, let me tell you quickly what it does do. It supplies--
the total remaining water needs in our State are about $600 
million. That was for more than 520,000 people that are 
affected in 144 water systems.
    This gets us moving in that direction. The water supply and 
water treatment needs also of the Indian reservations within 
North Dakota are addressed in this bill with $200 million 
authorized towards those needs.
    Finally, the State of North Dakota stands ready to 
contribute the non-Federal share for the State MR&I program.
    I want to ask you quickly to support this legislation for 
three reasons. The legislation is a bipartisan effort, and has 
broad-based support across the State of North Dakota. As I 
mentioned, the congressional delegation, the Governor's 
administration, the wildlife and environmental groups, and 
unanimous action by the legislature in our State deems that we 
move forward with this legislation.
    Congressman Pomeroy mentioned it is economically sound, 
environmentally proper, and it tends to solve some problems of 
water issues of high-quality affordable water in areas of our 
State.
    This Act I think is a reasonable solution from the Federal 
perspective. We have reduced the acres of irrigation. We know 
that is a problem with you. Although our MR&I needs total more 
than $600 million, we have agreed to provide $100 million to up 
front projects and also to reimburse $200 million for the 
delivery of water to the river.
    The people of North Dakota are willing to pay our 50 
percent share of identified MR&I needs. The Dakota Water 
Resources Act will deliver the promises made to our citizens in 
1944 to bring a final and reasonable conclusion to this long 
and often controversial history of the Garrison diversion 
project.
    Finally, let me mention one more issue. I am very proud of 
the opportunity or the issue that we have put together, the 
partnership we have put together with the Natural Resources 
Trust Fund. We have established a great working partnership 
with the Federal Government and State government on this issue.
    We have funded, with our State funds, our portion and 
share. It has gone to restore wildlife and wetlands areas. I am 
pleased that this trust fund will also continue in the new 
legislation.
    The Dakota Water Resources Act has laid out a plan for 
continued consultation. Legitimate concerns should be and will 
be addressed. No one should be allowed to hold up the 
conclusion of this project simply because they have outdated 
philosophies on using surplus Missouri River water, or they 
have some outdated technology mentality; of meeting legitimate 
needs of the State of North Dakota.
    Mr. Chairman, I have submitted more testimony than that in 
writing. I appreciate the opportunity to be with you today. We 
would be glad to answer any questions that you may have.
    [The prepared statement of Governor Schafer follows:]

                     Statement of Edward T. Schafer

    Mr. Chairinan and Members of the Subcommittee, my name is 
Edward T. Schafer, Governor of North Dakota. Thank you for the 
opportunity to testify in support of the Dakota Water Resources 
Act.
    Much of the day-to-day living that goes on in North Dakota, 
Minnesota, Manitoba and Saskatchewan takes place without giving 
much consideration to borders created by governments. The 
natural resources that move between the borders are the 
people's to manage, not only for the well being of any one 
individual or group, but for the well being of everyone living 
on the prairie, for the land, water and wildlife itself . . . 
for today and the future.
    The Dakota Water Resources Act is the key to solving these 
needs. The project unlocks North Dakota's future and is an 
indispensable element for water supply, economic development, 
agriculture, recreation, tourism, and wildlife enhancement. The 
Bureau of Reclamation has stated that the cost of the Dakota 
Water Resources Act is no more than the cost of the 1986 
Garrison Diversion Reformulation Act, and as matter of fact, 
the cost of meeting the needs of the 1986 Act is far in excess 
of the cost of the Dakota Water Resources Act. For these 
reasons, it is good for North Dakota as well as the nation.
    The greatest challenge before us is to find the best 
solution for a dependable water supply for current and future 
generations of North Dakotans. Good drinking water is necessary 
for economic stability and growth. Presently, much of North 
Dakota suffers from either insufficient quantity or lack of an 
adequate supply of good quality water for drinking. The 
solution to this challenge is the delivery of water from the 
Missouri River throughout the state. By providing Missouri 
River water throughout the state, we will also be able to 
support the growth experienced in certain areas of the state in 
recent years. This growth has come about largely because of new 
manufacturing and new industry service centers. As communities 
grow, so does the demand for water and so does the need for a 
safe water supply.
    The drafters of the Dakota Water Resources Act realize this 
responsibility, have asked others to participate in the process 
of finding an acceptable project for all interests involved and 
have scaled down what was originally a multi-billion dollar, 
federally funded irrigation project into a management program 
for municipal, rural and industrial water needs. The new 
approach emphasizes supplying water to small communities, rural 
residents, Indian reservations, and cities that are in 
desperate need of a quality, affordable and reliable water 
supply. At the same time, the bill enhances wildlife and 
natural resources and requires strict compliance with 
environmental laws and the Boundary Waters Treaty of 1909 
between the United States and Canada.
    Acting responsibly, as good neighbors to the people and 
governments of Canada and Minnesota has always been a priority 
among the sponsors of the Garrison Diversion legislation. While 
attempting to do so in every way possible, we cannot lose sight 
of our ultimate purpose . . . to deliver on the promise of a 
dependable water supply system that meets the needs of the 
people who live and work within the Red River Basin. That being 
the most-important priority, the very real needs of these 
people should not allow uncontested veto powers by Minnesota or 
Canada. We can no longer delay project completion because of 
philosophical differences or unwarranted criticism.
    The water supply needs of the Red River Valley are being 
evaluated for the best available method to solve the Red River 
Valley water supply problems. This is a cooperative effort of 
Federal, state and local agencies. Water conservation, 
available water supplies in the basin, and diversion of water 
from outside the basin are all being considered to meet future 
Red River Valley needs. Under any scenario, the amount of water 
necessary for the Red River Valley represents less than 1 
percent of the annual Missouri River flow leaving North Dakota.
    The argument opponents have raised is that the Act should 
be able to guarantee or prove beyond any doubt that harm will 
not occur to another water supply. That is, of course, 
impossible. What we can guarantee is that we will comply with 
all the regulations and laws established by the Boundary Waters 
Treaty. In fact, the Dakota Water Resources Act requires that 
compliance with the 1909 Boundary Waters Treaty be determined 
prior to construction. The Act also requires the Secretary of 
Interior, in consultation with the Secretary of State and the 
EPA, to certify compliance before construction of any 
interbasin conveyance system. This recent change in the DWRA 
language was made to accommodate Canadian concerns, and adopted 
by the sponsors of the bill.
    The issue of trans-basin biota transfer has plagued the 
project for years. For more than a decade, these potential 
trans-basin biota transfer impacts have been studied by the 
Interbasin Biota Transfer Study Program, a co-operative venture 
of Universities in Manitoba and North Dakota. The series of 
studies conducted by teams of scientists from both the United 
States and Canada have attempted to identify foreign biota and 
the future environmental impact they might have on Red River 
Basin water. No credible scientific evidence has been found to 
identify specific foreign biota or any threat to these 
particular water resources. Although these conclusions do not 
totally dismiss the chances that such biota does exist, and 
that it may be potentially harmful, no specific cause for alarm 
has been documented.
    The sponsors of the Dakota Water Resources Act of 1999 have 
even gone so far as to address the undocumented concerns by 
agreeing to treat water delivered by a buried pipeline to the 
Red River Valley in eastern North Dakota. In fact, treatment 
levels for this water would equal disinfection standards for 
drinking water and result in a 99.99% removal of viruses--an 
extraordinary and unprecedented precaution--especially when you 
consider the fact that a number of interbasin water diversion 
projects in the Western United States have been completed 
without disinfection.
    Concerns have also been raised about the state's effort at 
flood control at Devils Lake, which some suggest is a back door 
approach to divert Missouri River water to Devils Lake. The 
proposed Devils Lake outlet cannot be operated to divert 
Missouri River water into Devils Lake. The lake has risen 25 
feet in the last 6 years and the Federal agencies involved in 
finding a solution, understand that the goal is to decrease 
rather than increase the water levels in Devils Lake. These 
issues of flood control and an inlet are totally separated 
physically, as well as by law. I want to assure you that the 
people of North Dakota that live and work in our state and 
understand our needs and desires, including wildlife and 
environmental organizations, support this project. We are all 
100 percent committed to meeting the quality and environmental 
standards and safeguards that Congress has had the foresight to 
put in place. The Dakota Water Resources Act is written in such 
a way that there is no question that the project will fully 
comply with NEPA, the National Environmental Policy Act, as 
well as the Boundary Waters Treaty.
    Further concerns about diversion causing harm to downstream 
Missouri states is unfounded. Diversion of Missouri River water 
to the Red River Valley for the Dakota Water Resources Act is 
less than 1 percent of the river. If 200 cfs is diverted daily 
for nine months from the Missouri River into the Red River 
Valley, only 108-thousand acre-feet of the annual total of 95-
million acre-feet of water that flows by Herman, Missouri would 
be diverted. That's less than 0.2 percent of volume.
    When Congress authorized the Garrison Municipal, Rural and 
Industrial (MR&I) Water Supply program in 1986, it was a 
positive first step in fulfilling the water needs of our state. 
The total identified needs then were more than $400 million. 
Unfortunately, even after addressing some of these needs under 
current law, the total remaining water supply needs in the 
state today exceeds $600 million because of inflation and newly 
identified needs. The water supply needs are for more than 
520,000 people in 144 water systems including community and 
rural needs. In preparation for passage of this legislation, 
the State of North Dakota has established the means for 
contributing the non-Federal share of the state MR&I program.
    The water supply and water treatment needs of the Indian 
reservations within North Dakota are also addressed in the bill 
with $200 million authorized towards those needs. The North 
Dakota citizens who are tribal members, deserve to have their 
exceptional needs addressed. This legislation includes an MR&I 
component, that makes great strides towards meeting the needs 
of our Native American citizens.
    The Dakota Water Resources Act has laid out a plan for 
continued consultation, but the limit needs to be realized. 
Legitimate concerns should and will be addressed, but no one 
should be allowed to hold up completion of this project simply 
because they have an outdated philosophy on using surplus 
Missouri River water to meet the legitimate needs of the State 
of North Dakota.
    This bill is supported by Republicans as well as Democrats 
across North Dakota. In 1994 we began a process in the state to 
bring together all interests to forge an agreement regarding 
Garrison. We have struggled for years until all interests 
within the state have reached an agreement that is embodied in 
this legislation. It is supported by the Democrats and 
Republicans in the North Dakota Legislature, by the Democrats 
in our congressional delegation, by the Republican in the 
Governor's office, and by diverse groups of people ranging from 
farm organizations to education associations. This legislation 
is truly a bi-partisan effort at finding agreement on an 
enormously important piece of legislation that has languished 
for a decade waiting for completion. It is an economically and 
environmentally sound plan that attempts to solve some of the 
water issues and help provide high quality, affordable water to 
areas of need across the state.
    Everyone must cooperate to meet the challenge of providing 
safe, affordable and reliable water to our citizens and 
neighbors, and to address our water management needs. There are 
problems in all corners of our state, and there is agreement 
that cities, rural areas, agricultural interests, 
conservationists, and water managers can solve these problems 
by working together. The completion of the Garrison Diversion 
Project, through the Dakota Water Resources Act, is the best 
approach to solving our difficult water problems for current 
and future generations of North Dakotans.
    The Dakota Water Resources Act is a reasonable solution 
from the Federal perspective as well. We have reduced the acres 
of irrigation and although our total MR&I need is more than 
$600 million, we have agreed to provide $100 million upfront to 
projects and to also reimburse $200 million for the delivery of 
water to the Red River. As you can see, the people of North 
Dakota are willing to provide for 50 percent of the identified 
MR&I need.
    The Dakota Water Resources Act will bring to a reasonable 
and final conclusion, the long and sometimes controversial 
history of Garrison. North Dakotans from cities, farms and 
businesses are committed to the Garrison Diversion Project. The 
project can never be what it once was planned to be in 1944, 
but it will continue to be the most important water resource 
management project in our state and as well to the growth of 
the nation. I thank you for past support for the Garrison 
Diversion Project, and it is my hope you will continue your 
support in helping to secure a better, brighter, and bolder 
future for North Dakota through the Dakota Water Resources Act.
    Thank you.

    Mr. Doolittle. Thank you, Governor.
    I will recognize Senator Kent Conrad for his testimony. 
Welcome.

  STATEMENT OF HON. KENT CONRAD, SENATOR, NORTH DAKOTA, U.S. 
                             SENATE

    Senator Conrad. Thank you, Mr. Chairman.
    If I could just start by saying that I respect the 
jurisdiction of this Committee, Mr. Chairman, and I don't know 
what the legislative process, how it will unfold, but I have 
great respect for the jurisdiction of this Committee.
    I have great respect for the chairman of this Committee. We 
are going to do everything we can to be responsive to the 
concerns of this Committee. I want to say that up front and 
very clearly.
    Mr. Chairman, this bill, as the Governor describes, enjoys 
incredibly broad support in the State of North Dakota. This is 
truly bipartisan. Every water group in North Dakota supports 
this, every affected city supports this. The major business 
organizations in our State support it. The North Dakota rural 
electrics support it. Every water users group support it. So I 
think this has broad support in the State of North Dakota, 
including, and I want to emphasize this, the major 
environmental groups of North Dakota.
    The reason we have had such a breakthrough since our last 
hearing, Mr. Chairman and members of the Committee, is because 
we have altered this project dramatically. This is not the old 
Garrison project. This is a new project that is taxpayer-
friendly, that is environmentally sensitive, and that makes 
sense for the water needs of North Dakota.
    So I hope we won't look at this project through the lens of 
the old project, because we have dramatically changed it in 
negotiations with members on this side, on the Senate side, and 
the administration. That is what has led the administration to 
endorse this project.
    Mr. Chairman, the need, I think, is really very clear. This 
is a sample of water from the Leonard Jacobs residence in 
Reeder, North Dakota. It looks like coffee or iced tea, but I 
can tell you, it is a lot less drinkable than that. This is a 
problem we have all over North Dakota.
    Mr. Chairman, this chart shows the comparison of the 
typical water supply for rural North Dakotans, that jar on the 
right. The jar on the left represents water that is delivered 
via pipeline: clean, healthy water. That is why we need this 
project, Mr. Chairman. We need it desperately.
    This chart shows a young child bathing in the typical water 
we see in southwestern North Dakota and northwestern North 
Dakota. Can you imagine putting your child in that kind of 
water for a bath? But that happens every night in hundreds and 
thousands of households across North Dakota. We need your help. 
We need your help to change that.
    Mr. Chairman, members of the Committee, we also need to be 
able to deliver water to eastern North Dakota, because in the 
past we have seen repeatedly that the Red River has become so 
dry you could walk across it without getting your shoes wet. 
This is 1910. The Red River was virtually dry then. It happened 
also in the thirties. We can fairly anticipate it is going to 
happen again. That is why this project is so important.
    Let me just say what this bill contains. It contains $200 
million for statewide municipal, rural, and industrial water 
projects, $200 million for tribal MR&I.
    I might say that tribal water supplies in many cases are 
even worse than what I have shown here. There is $200 million 
to deliver water to the Red River Valley, $25 million for an 
expanded natural resources trust, and $6.5 million for 
recreation projects. This represents, in negotiations with the 
administration, a $140 million reduction from the legislation 
as introduced, and it represents a $600 million reduction from 
the cost of the currently-authorized project. That is why we 
believe this is taxpayer-friendly.
    As I have indicated, we also enjoy the support of the 
environmental organizations in North Dakota, because we have 
made it environmentally sensitive.
    We have also made this project treaty-compliant. I know 
some of you have heard from our neighbors to the north. As the 
Governor has indicated, we have no intention to violate the 
Boundary Waters Treaty. We intend to comply with it, because we 
know we can.
    Mr. Chairman, members of the Committee, I hope very much 
that you will work on this legislation, suggest to us how it 
could be improved, but help us move it forward, because it is 
needed. It is broadly supported in North Dakota, and I believe 
it deserves your support.
    Thank you, Mr. Chairman, and members of the Committee.
    [The prepared statement of Senator Conrad follows:]

Statement of Hon. Kent Conrad, a Senator in the Congress from the State 
                            of Morth Dakota

INTRODUCTION

    Mr. Chairman, thank you for providing me the opportunity to 
testify in strong support of the Dakota Water Resources Act of 
1999. I appreciate your willingness to hold this hearing--the 
second in 2 years on this bill--and hope to be able to 
demonstrate the significant progress we have made on this 
legislation in recent months.
    I am especially pleased that this bill enjoys incredibly 
broad support. As you heard last year, and as you will hear 
today, the bill has the unanimous support of the bipartisan 
elected leadership of the State of North Dakota. It is 
supported by North Dakota water users and North Dakota 
conservation organizations--groups that have historically 
disagreed on water policy in our state. The bill is supported 
by the Greater North Dakota Association (our chamber of 
commerce) and the North Dakota Education Association. Mr. 
Chairman, this bill enjoys the broadest support of any piece of 
legislation affecting my state that I have worked on in my two 
terms in the Senate.
    Additionally, we are extremely pleased that the bill is 
supported by the Administration. After more than a year of 
discussions, covering more than 60 issues, last spring we 
reached agreement on this bill. In reaching that agreement, we 
reduced the cost of the legislation by $140 million, 
strengthened environmental provisions in the bill, and provided 
additional assurances to our Canadian neighbors.
    The bill before the Committee is not our grand-daddy's 
Garrison project. The bill enjoys the support of North Dakota 
and the Administration because it is a fiscally-sound, 
environmentally-sensitive, and Treaty-compliant plan to 
complete the Garrison Diversion project. We believe the bill 
deserves the support of this Committee, and we are ready to 
work hard with you to garner your support.
THE NEED

    On the verge of the 21st century, North Dakota still faces 
significant water development needs to meet the basic water 
demands of our citizens and to ensure a bright economic future 
for our state. North Dakota is a semi-arid state that 
historically has suffered from insufficient water supplies as 
well as water quality problems.
    These charts show the dramatic need for water development 
in North Dakota.
    This chart shows a sample of the poor quality water 
directly from the tap of some of our residents. This water 
sample on the left is well water from a farmstead in southwest 
North Dakota. It is as dark as weak coffee, but not nearly as 
fit to drink. The water sample on the right in the chart shows 
water delivered by the Southwest Pipeline Project, which is 
clear and clean and fit to drink. Only through the funds 
provided by the cost-shared Garrison MR&I program could this 
clean water have become a reality.
    I recently attended a ``turning on the tap'' ceremony in 
Hettinger, North Dakota sponsored by the Southwest Pipeline 
project. The Southwest Pipeline project is one of North 
Dakota's true success stories, bringing more than 900 million 
gallons of water annually to more than 28,000 homes and 
businesses across Southwest North Dakota.
    The dedication event represented the completion of another 
phase of the project to bring water to the Hettinger and Reeder 
areas in Adams County North Dakota. You should have seen the 
elation in people's faces as clean, clear water flowed from the 
faucet. For the first time in their lives, people in the area 
do not need to haul water several times a month and the project 
means white clothes will come out of the wash white, not grey.
    This next chart shows a picture of a baby bathing in dirty 
water from southwestern North Dakota. It is the same kind of 
water shown in the first picture, and is as unfit to bathe in 
as it would be to drink. This is what we need to change in 
North Dakota.
    We also must meet the water needs of the Red River Valley.
    The next chart shows Red River nearly dry in Fargo in 1910. 
While we all remember the flooding of 1997, we must also 
remember that the Red River has been nearly dry on many 
occasions. At times you could walk across the river without 
getting your feet wet. This picture illustrates the times the 
river has been nearly dry, leaving the communities up and down 
the Red River Valley without a reliable source of water.

THE BILL

    As I said at the beginning of my statement, the Dakota 
Water Resources Act is not our grand-daddy's Garrison project. 
It represents a new vision to address the 21st Century water 
needs of my state. The bill before the Committee today reflects 
the realistic contemporary water needs of the State, and 
represents a realistic settlement to the long-standing 
commitment made to our state when we agreed to host a permanent 
500,000-acre flood.
    Fundamentally our bill proposes to further reduce 
irrigation in exchange for additional MR&I development, and 
also proposes innovative ways to meet the other purposes of the 
project.
    Our bill includes:

    <bullet> $200 million for statewide MR&I projects;
    <bullet> $200 million for Tribal MR&I projects;
    <bullet> $200 million for a Red River Valley Water project;
    <bullet> $25 million for an expanded Natural Resources Trust;
    <bullet> $6.5 million for recreation projects;
    <bullet> Requires the state to pay for existing features at the 
time and to the extent those features are actually used;
    <bullet> About 70,000 acres of irrigation, and a prohibition on 
irrigation development in the Hudson Bay drainage basin;
    <bullet> Requires compliance with the National Environmental Policy 
Act and the Boundary Waters Treaty with Canada; and
    <bullet> Encourages the State to establish a water conservation 
program using funds from the bill.
    The bill will result in a project that will cost about $600 million 
less than the currently-authorized project would cost the government to 
fully construct.

THE PROCESS

    We have engaged in an unprecedented and cooperative process. The 
six years of effort have included discussions with interested North 
Dakotans representing every interest, with the Federal agencies, and 
with National and North Dakota environmental organizations. In 
February, 1997, we held a marathon 10 hour negotiating session with 
environmental interests. That meeting resulted in an agreement on 12 
principles that would guide our legislative proposal. The bill before 
the Committee remains true to the agreement we reached with the 
conservation organizations more than two years ago, and we are 
extremely pleased that the North Dakota Wildlife Society and the North 
Dakota Chapter of the Wildlife Federation support the bill.
    The result is a product that has nearly unanimous support of 
leaders in North Dakota. This bill has the support of the bipartisan 
elected leadership of North Dakota from every level of government--
Federal, state, tribal, and local. It has the support of water 
interests; business leaders; ND conservation organizations; large and 
small cities; agriculture; rural electric co-ops; even the ND Education 
Association.

CONCLUSION

    Mr. Chairman, this legislation represents a fiscally-sound, 
environmentally-sensitive, Treaty-compliant approach to completing the 
Garrison project. The bill will help meet the contemporary water needs 
of our state while enhancing our natural resources. I hope this 
represents the final chapter in the history of this project, and urge 
the Committee to join us in supporting passage of this bill.

    Mr. Doolittle. Thank you. Our next witness will be Senator 
Byron Dorgan.

   STATEMENT OF BYRON L. DORGAN, SENATOR, NORTH DAKOTA, U.S. 
                             SENATE

    Senator Dorgan. Thank you, Mr. Chairman, very much. I am a 
member of the authorizing committee in the Senate as well on 
this issue, and we have just recently voted this bill out of 
the Senate committee. It is now going to be going to the Senate 
floor at some point.
    We did that because this bill makes good sense. There has 
been a great deal of work done. A Republican Governor, a 
Democratic congressional delegation, a bipartisan group of 
leaders of the State House and the State Senate have all agreed 
on this project and the changes and the alterations that have 
been necessary to advance to this piece of legislation.
    It is not just officials, however, it is a representative 
group of North Dakotans, representing a wide range of 
interests, including environmental groups, who have joined us 
and work with us. This is almost unprecedented in our State. 
All of us agree that this represents the best approach, a sound 
approach to respond to the needs of our State.
    I want to talk just for a moment about what this is and 
what it is not, because that is very important to understand.
    First of all, this project is not some historical accident, 
and it is not the result of some thick slather of pork that 
someone attached to some bill 40 years ago. It is not that. 
This project is the second half of a contract that the Federal 
Government made with the people of the State of North Dakota. 
That contract says we will have two parts. In both the Federal 
Government initiated it and signed it and the people of North 
Dakota agreed to it. The contract was to say, we want to 
harness the Missouri River, and we want you in North Dakota to 
have a permanent flood forever the size of the State of Rhode 
Island, right smack in the middle of your State.
    Fellow citizens of North Dakota, the Federal Government 
said, if you will allow a permanent flood to visit your State 
forever, we will give you something in return. We pledge to 
that you by contract will have an opportunity to move the water 
behind that permanent flood, now called a reservoir, around 
your State. You will then be able to address the issue of the 
Red River running dry and a wide range of other serious water 
quality problems in North Dakota.
    That was the bargain. We did not come hat in hand asking 
anybody for anything, and never have. The bargain was, take the 
flood, keep the flood forever, and we promise you we will 
provide water development benefits as a result.
    We got the flood. We invite all of you to come and see it. 
There is good fishing, good recreation. There are some benefits 
to it, but nonetheless, it is a permanent flood in the middle 
of our State. Moreover, we have not yet received the full 
flower of develpoment benefits promised us by the Federal 
Government to move this water around our State and have the 
other capabilities that are necessary for our future.
    Our State, of all the western reclamation States, is the 
one that has been left behind. We come to you today with a 
final revision of this project, saying that this is what is 
necessary for the Federal Government to do to keep its bargain 
with the people of North Dakota.
    Senator Conrad indicated this proposal reduces the 
authorized project by over $600 million. These changes that are 
proposed will reaffirm the decision-making of the Secretary of 
Interior on key issues. Some were worried that the decision-
making on whether the Red River Valley needs, for example, 
would exclusively go to North Dakota. That will not be the 
case. This bill addresses forthrightly and completely the 
concerns of Canada. Those who say different are wrong. This 
bill addresses those Canadian concerns completely.
    Further, the bill deauthorizes the Lonetree feature to 
which Canada had previously objected and on which it demanded 
consultation. This deauthorizes it and converts it into a 
wildlife enhancement area.
    This bill, fourth, strengthens environmental protection, 
and does so by incorporating specific recommendations of the 
North Dakota wildlife and conservation groups. This bill 
creates a project that does not destroy wetlands, it preserves 
wetlands. In short, this bill is very important for the future 
of our State.
    If we speak about this with some passion and some 
impatience, I expect you will understand why. Fifty years, 30 
years, 20 years, at some point the Federal Government must keep 
its bargain with the people of North Dakota. It can do so by 
passing a piece of legislation that has broad bipartisan 
support, makes good common sense, reduces by over $1 billion 
according to Administration testimony the authorized project 
that now exists, and enhances the ecomomy and assists the 
people of our region of America in a manner that was envisioned 
50 years ago when the dual promise for flood control and other 
development was made.
    [The prepared statement of Senator Dorgan follows:]

Statement of Hon. Byron L. Dorgan, a Senator in congress from the State 
                            of North Dakota

    Mr. CHAIRMAN:
    I welcome the opportunity to testify today in support of 
the Dakota Water Resources Act (H.R. 2918) introduced by 
Representative Pomeroy. Senator Conrad and I have introduced S. 
623 which, as amended, is identical to the House bill.
    Let me say a few words about the Dakota Water Resources 
Act. Senator Conrad, Rep. Pomeroy, and I have worked with North 
Dakota Governor Edward Schafer and the statewide elected 
leaders of North Dakota to develop a bipartisan consensus in 
support of this bill. The bill is widely supported by tribal 
and local governments as well as North Dakota wildlife, water 
user, and business groups.
    With amendments adopted in the Senate Energy Committee 
mark-up last week, it is now supported by the Clinton 
Administration as well. So we have achieved some very strong 
support for this critical legislation.
    This is a water development bill that I am proud to 
sponsor. It reduces Federal costs, meets environmental and 
international obligations, and very importantly, fulfills the 
Federal promise to address North Dakota's contemporary water 
needs. This bill meets the Federal obligation to compensate 
North Dakota for farm lands lost to a Federal flood control 
project. It cannot be judged as just another rural water bill. 
It is much more.

The Federal Commitment to North Dakota

    Over fifty years ago, the Federal Government began building 
a series of mainstream dams on the Missouri River to provide 
flood protection, dependable river navigation, and inexpensive 
hydro power--primarily for the benefit of states in the Lower 
Missouri Basin. These problems became acute when flooding 
during WWII disrupted the transport of war supplies and spawned 
disaster relief needs in a budget already overstretched.
    When North Dakota allowed the Garrison Dam and Reservoir to 
be built in the state (along with the added impact in North 
Dakota created by the Oahe Reservoir in South Dakota), it 
agreed to host permanent floods that inundated 500,000 acres of 
prime farm land and the Indian communities on two reservations. 
The state and Tribes agreed to this arrangement in exchange for 
a promise that the Federal Government would replace the loss of 
these economic and social assets with a major water development 
project, the Garrison Diversion Unit.
    But 50 years later, the project is less than half done.
    We were promised a major water and irrigation project. It 
was designed to help meet the agricultural needs of a semi-arid 
state that gets only 15-17 inches of rainfall per year. We 
originally expected the funding to provide for the irrigation 
of over a million acres of land, most of it in areas much less 
productive than the land lost to the Garrison Reservoir. The 
Federal Government eventually started a scaled-down version of 
the project, with 250,000 acres of irrigation. In response to 
criticisms that the project was too costly and too 
environmentally disruptive, a Federal commission proposed a 
major revision in 1984 and made recommendations on how to meet 
North Dakota's contemporary water needs.
    In 1986, I renegotiated the project with the Reagan 
Administration, the then-House Interior Committee, and national 
environmental groups. These talks resulted in the Garrison 
Diversion Reformulation Act of 1986. The law implemented the 
Garrison Commission's findings and recommendations and included 
a 130,000 acre irrigation project for the state and Tribes, the 
promise of Missouri River water to augment water supplies in 
the Red River Valley, an installment on municipal, rural, and 
industrial (MR&I) water for communities across the state, 
initial water systems for the Standing Rock, Fort Berthold, and 
Ft. Totten Indian reservations and a range of activities to 
enhance wildlife and habitat.

The Completion of the Promised Project

    The Dakota Water Resources Act would scale back this 
project even more. It reduces federally authorized irrigation 
from 130,000 to 70,000 acres and eliminates funding for 
irrigation development. This will reduce project costs and 
target limited funds in the bill to high priority irrigation 
and MR&I water development.
    The bill does provide $630 million in new resources to 
complete the major MR&I delivery systems for the four Indian 
tribes and the state's water supply network, and includes a 
process for choosing the best way to address the Red River 
Valley's water needs. It also makes wildlife conservation a 
project purpose, expands the Wetlands Trust into a more robust 
Natural Resources Trust, and funds a few priority recreation 
projects.
    The State has worked with the Bureau of Reclamation to 
resolve several concerns about the bill in a series of 
negotiations and discussions over the past months. The 
revisions reduce costs, meet tough environmental standards, 
strengthen compliance with an international border agreement, 
and reaffirm the role of the Secretary of the Interior in 
decision-making.
    Mr. Chairman, permit me to outline the modifications made 
over several months:

    1. Retain the cost share of 25 percent for MR&I projects, 
along with a credit for cost share contributions exceeding that 
amount. This, in place of a 15 percent cost share.
    2. Reimburse the Federal Government for the share of the 
capacity of the main stem delivery features which are used by 
the state. This, instead of writing off these features.
    3. Index MR&I and Red River features only from the date of 
enactment, not since 1986.
    4. Expressly bar any irrigation in the Hudson Bay Basin.
    5. Give the Secretary of the Interior the authority to 
select the Red River Valley Water Supply feature and determine 
the feasibility of any newly authorized irrigation areas in the 
scaled-back package.
    6. Extend the Environmental Impact Studies period.
    7. Require that, prior to construction of any Red River 
Valley delivery features, the Secretary of the Interior, in 
consultation with the Secretary of State, and the EPA 
Administrator, must determine that the project complies with 
the Boundary Waters Treaty.
    8. Reduce the project costs by $140 million by cutting $100 
million in MR&I and $40 million for the Four Bears Bridge.
    9. Set cost-sharing on operations and maintenance.

Revision that Pass Muster

    Taken together with prior provisions, these changes achieve 
four purposes. First, they reduce total project costs by over 
$500 million--by limiting indexing; by defining specific state 
responsibility for repayment of existing features instead of 
blanket debt forgiveness; by de-authorizing such major 
irrigation features as the Lonetree Dam and Reservoir, James 
River Feeder Canal, and Sykeston Canal; and by retaining 
current law with respect to MR&I cost-sharing and repayment for 
Red River supply features. The state will also contribute about 
$435 million through repayments and cost-sharing.
    Second, the changes affirm the decision-making authority of 
the Secretary of the Interior on key issues. The Secretary 
would consult with the state of North Dakota on the plan to 
meet the water needs of the Red River Valley but make the final 
selection of the plan that works best and certifies compliance 
with the Boundary Waters Treaty. The Secretary also negotiates 
cooperative agreements with the state on other aspects of the 
project. These arrangements protect the Federal interest while 
assuring that North Dakota is a partner in a project so closely 
linked to its destiny.
    Third, the bill forthrightly addresses concerns of Canada. 
The U.S. and Canada have a mutual responsibility to abide by 
the Boundary Waters Treaty and other environmental conventions. 
The Dakota Water Resources Act states in the purpose that the 
United States must comply strictly with the Treaty. It further 
bars any irrigation in the Hudson Bay drainage with water 
diverted from the Missouri River, thus curtailing biota 
transfer between basins. Again, the Secretary of the Interior 
would choose the Red River Valley water supply plan, but if 
that choice entails diversion of Missouri River water, then it 
must be fully treated with state-of-the-art purification and 
screening to ensure treaty compliance.
    Further, the bill de-authorizes the Lonetree features to 
which Canada previously objected and on which it demanded 
consultations. However, Canada will have a robust opportunity 
to comment and consult on the project as the State Department 
reviews possible Red River Valley projects and Environmental 
Impact Statements are prepared. Since Canada supported the 1986 
Garrison Reformulation Act, it boggles my mind to see how it 
might oppose a bill that dramatically strengthens the 
safeguards for our northern neighbor.
    Fourth, the revised bill strengthens environmental 
protection and does so by incorporating the specific 
recommendations of North Dakota wildlife and conservation 
groups. It lengthens the periods for completing the 
Environmental Impact Statements. It also protects the Sheyenne 
Lake National Wildlife Refuge. Moreover, it preserves the role 
of the Secretary of the Interior on compliance matters and 
drops the provision that called for a study of bank 
stabilization on the Missouri River.
    This bill is environmentally sound. It does not destroy 
wetlands, it preserves them. It preserves grasslands and 
riparian habitat, too. It was not dreamed up by a water 
development group. It was drafted with the input of tribal and 
community leaders, local and national environmental groups, the 
bipartisan leadership of the state, and the Bureau of 
Reclamation and Office of Management and Budget. It reflects a 
balanced approach to water resource development that applies 
the principles of conservation while offering the hope of 
economic development.
    Mr. Chairman, I thank you for the opportunity to testify 
and I would be glad to answer any questions.

    Mr. Doolittle. Thank you. Mr. Pomeroy, you are recognized 
to close.
    Mr. Pomeroy. Mr. Chairman, with your leave I will go at the 
end of the next panel, with about 2 minutes of closing.
    Mr. Doolittle. Is that what you would like to do?
    Mr. Pomeroy. Yes, I would.
    Mr. Doolittle. Okay. Do members have questions of our 
distinguished witnesses?
    We thank you for coming. Again, I have never seen a State 
that has this high a level of political representation for a 
project, so for the second time in about a year, you have 
manifested that focus. It is impressive, and we thank you for 
coming to share your views with us.
    Senator Conrad. We want to thank the chairman and thank the 
members of your Committee for your attention to this matter. We 
very much appreciate it.
    Mr. Doolittle. Thank you.
    Mr. Vento. Mr. Chairman, I appreciate the opportunity to 
sit in the hearing. I have an opening statement and I wanted to 
make it part of the record.
    Obviously, we have, as was stated, the Governor submitted 
his statement. I appreciate him putting that in the record. I 
would observe that we don't have a full complement of 
witnesses, and I am pleased to hear that you are going to 
accept and expect statements for the record from others that 
are interested.
    My major issue and questions that we have to be resolved, 
and I don't know that I will be able to stay throughout the 
course of the hearing, as I have a conference on the banking 
bill at 3, but I will try to follow this and work with the 
sponsors and with the Subcommittee as they move forward on 
this, on the deliberation of this, because we are interested, 
obviously, in Minnesota beyond just the statements from the 
Governor, which, as I agree, they are dealing in some cases 
with questions that have been answered in this legislation, but 
it has been a moving target for some time.
    So I will submit, with your permission, Mr. Chairman, this, 
and thank you for accommodating my participation in today's 
hearing.
    Mr. Doolittle. Thank you. We are pleased to have you here. 
Without objection, your statements will be made part of the 
record.
    [The prepared statement of Mr. Vento follows:]

 Statement of Hon. Bruce Vento, a Representative in Congress from the 
                           State of Minnesota

    Thank you Chairman Doolittle and Ranking Member Dooley for 
permitting me to sit with the Committee during part of this 
hearing. The Garrison Diversion Project has been of great 
concern to the state of Minnesota for many years. I appreciate 
the opportunity to express some thoughts on this matter and 
hope that Members of this Committee will take these concerns 
into consideration. The Garrison Diversion Project has been in 
development for over forty years. To say the least, this is a 
complicated matter that stands to affect a great many people, 
various states, and even our neighbors to the north, Canada. I 
would also like to note that today's witness list does not 
appear to represent a full cross section of all opinions 
regarding this project. I have heard several concerns regarding 
this project expressed to me by the Canadian Embassy and 
national environmental and taxpayer groups. I hope that at a 
later date, we may be able to hear their concerns, so we may 
gain a better understanding of this project or at least, as the 
chairman has stated, that they will submit statements for the 
record.
    I first became better aware of the Garrison Diversion 
Project during its reauthorization in 1985. The net result of 
1985 legislation yielded the Garrison Diversion Reformulation 
Act of 1986. The project, which originally was agricultural in 
nature and was designed to provide a statewide network of 
irrigation ditches to North Dakota's farmers, metamorphosed 
into a project designed to provide clean, safe and reliable 
drinking water to the state's residents. The legislation which 
comes before us today has gone a step further, and virtually 
eliminates all irrigation plans. It now focuses almost entirely 
on supplying potable water to the residents of North Dakota.
    Because of North Dakota's lithology, its residents have 
some of the poorest quality water in the nation. In many cases, 
their water supply must flow through lignite coal veins. The 
end result is poor quality water that is unacceptable for the 
citizens of North Dakota to drink. The health and welfare of 
our nation's citizens should always come first and I am glad to 
see that North Dakota's delegation has been amenable to 
changing the nature of their project to one that focuses solely 
on safe drinking water.
    It is my understanding that this project will have funds 
distributed to the town of Fargo, to various communities within 
the state, and to the State's four Indian Reservations for the 
development and construction of safe drinking water supplies. 
My reason for concem with regard to this project is the 
ecological factor associated with connecting the town of Fargo 
and other communities which lie in the Hudson River Basin to a 
water supply system that pulls its water from the Missouri 
Basin. In essence, this legislation will divert water from Lake 
Sakakawea which is fed by the Missouri River, through a series 
of pipelines and canals to the Sheyenne River. The Sheyenne 
River in turn empties into the Red River which North Dakota and 
Minnesota share as a border.
    The interbasin transfer of water raises a serious question 
as to the water quality of the Red River and to the biota that 
may be transferred. The legislation currently requires North 
Dakota to ``consult'' with the Secretaries of the Interior and 
State and with the Administrator of the Environmental 
Protection Agency before any interbasin water transfer occurs. 
I am concerned that the legislation requires North Dakota to 
consult only with the appropriate executive agencies. I 
understand that language may be offered to strengthen the 
consultation requirement to one that requires their approval. 
Although this certainly helps to address the environmental 
issues associated with interbasin transfers of water, I believe 
more needs to be done.
    Specifically, I am concerned that inadequate consideration 
has been given to the threat of introducing exotic species into 
the Hudson Bay watershed and that the interbasin transfer of 
water may adversely affect the water quality of the Red River. 
In a recent issue of The Economist, I was surprised to learn 
that managing invasive species in North America will 
collectively cost $124 billion. This policy risks the chance of 
increasing this dollar figure. I find it puzzling for Congress 
to mandate treatment before identification of what is being 
treated.
    The Red River currently boasts one the nation's best 
catfish fisheries. The use of protective screens and aeration, 
for example, certainly will not provide foolproof safeguards 
against water contamination by microbes. What happens if 
transferring Missouri River water to the Red River introduces a 
whirling disease-like microbe that could decimate the Red 
River's catfish population?
    The eight states and one province that surround the Great 
Lakes have a compact that provides prior notice and 
consultation for transfers of water out of the basin. The 
governors of each state, recognizing the importance of a 
healthy lake system, require unanimous approval of all parties 
before any water may be removed. Although no water is being 
taken out of the Great Lakes watershed, it is important that 
North Dakota consult with those states, or at least, Minnesota 
because this project will inevitably add foreign water to a 
watershed that empties into the Great Lakes.
    There is also the issue of water quality. Although the 
Garrison Diversion rroject does not include the construction of 
a Devil's Lake inlet or outlet, the State of Minnesota is still 
concerned that water may eventually flow out of it and into the 
Red River. The Devil's Lake is a cyclical body of water that 
self regulates through periods of natural recharge and 
evaporation. Because of its evaporative nature, the water is 
saline. If this water enters the Red River, it could disrupt 
the quality of the river's water.
    The Garrison Diversion Project has long been a debated 
activity and project. As the Committee proceeds in its 
consideration of the Garrison project, I ask that it consider 
all of the issues surrounding it. The climate in North Dakota 
and in the western part of Minnesota can be harsh to both the 
people that live there and its fauna and flora. It is important 
for man to understand the confines in which he lives. In modern 
times of sensitivity to man's effect on the environment, we 
should not allow two watersheds that have been geologically 
unconnected for millennia to become connected before we 
identify all possible impacts that may occur. I hope that North 
Dakota and Minnesota may work cooperatively in the future on 
this matter. It is important that we provide a safe supply of 
potable water to the people of North Dakota, but in doing so, 
we must address the environmental concerns that will result 
from the construction of this project.

    Mr. Doolittle. I ask unanimous consent that Mr. Pomeroy be 
permitted to join us here on our panel.
    Without objection, so ordered. Please come up, if you would 
like, or you can remain there.
    Mr. Pomeroy. I think I will sit this second panel down 
here, if you don't mind, because I will wrap up following this, 
as we have gone through our witnesses.
    Then, again, with your leave, and I appreciate it, I will 
come on up and sit with you all.
    Mr. Doolittle. Let me invite the members of this panel to 
come forward. We have four, I believe.
    If you gentlemen would remain standing and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Doolittle. Let the record show each answered in the 
affirmative. We welcome you, gentlemen. We try to live within 
the 5-minute rule here. There is a timer down there that gives 
you an indication. We won't cut anybody off in mid-sentence, 
but try to use it as a guide.
    With that, we will welcome our Commissioner of Reclamation, 
Eluid Martinez. Commissioner.

STATEMENT OF HON. ELUID MARTINEZ, COMMISSIONER, U.S. BUREAU OF 
          RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Martinez. Good afternoon. I was going to ask which one 
is the Pepsi so I could take a drink out of it.
    Mr. Chairman and members of the Subcommittee, I am pleased 
to provide the Administration's testimony on the Dakota Water 
Resources Act of 1999. My written statement has been submitted 
for the hearing record, and if appropriate, I will summarize 
that statement.
    H.R. 2918 would alter the Garrison unit of the Pick-Sloan 
Basin program as currently authorized to increase the funding 
authorization levels for State and Indian tribal, municipal, 
rural, and industrial water supplies.
    If I may, I will deviate a little from my prepared 
statement and try to set this in some context for the 
Committee. In the figures I have, they do not necessarily track 
with some of the testimony, but at least here is the 
information I have.
    The reformulation of this project in '86 by Congress set in 
place the construction of a project that, if completed, would 
require Federal expenditures in the amount of $2.4 billion. The 
Bureau of Reclamation has requested in this budget between $27 
and $30 million each year to move along the lines of 
constructing this project as currently authorized.
    The reformulation today that is being requested, based on 
figures I have, would bring the cost down to $1.4 billion. So 
we have almost $1 billion less that is being requested to 
complete the project that is being contemplated versus 
completing the project authorized in 1986.
    Out of the $1.4 billion that is being requested to complete 
the project, as is being presented to you today, $613 million 
has already been spent to date. So what remains is an $800 
million future commitment.
    Now, what this bill really requests is an increase of $600 
million to fund municipal, rural, and industrial water systems 
in the State of North Dakota. Out of that $600 million, $200 
million is to fund Indian projects, with no reimbursement to 
the Federal Government; $200 million to be used to fund 
municipal and rural and industrial water systems in the Red 
River Valley, if the studies indicate that those projects are 
both necessary and feasible.
    If those $200 million are used, they will be repaid to the 
Federal Government by the State of North Dakota 100 percent 
with interest. The remaining $200 million is an increase to the 
State of North Dakota in terms of a grant by the Federal 
Government to match the 75 percent Federal share to 25 percent 
State share for MR&I projects.
    The reason I go into this is I know your concern as to how 
these projects get funded. There is $200 million grant at 75 
percent, $200 million to be repaid back with interest, and $200 
million to go to the tribes under our trust responsibility, 
nonrepayment.
    What else would this bill do? It requires that a study be 
done of water needs in the Red River Valley to determine, first 
of all, if there is a need, and if these projects are 
justifiable. It also deauthorizes the project features 
associated with almost 75,000 acres of non-Indian irrigation 
that will be deauthorized by this project, and it increases by 
$25 million the amount of money to be put into a trust fund to 
address natural resources and fish and wildlife issues.
    As I understand, the '86 Act set up a wetland trust fund to 
address wetlands, and required 10 percent of the money in that 
trust fund to be matched by the State. This bill increases it 
by $25 million, and expands the scope of issues that can be 
addressed by the fund. In other words, the old fund was only 
for wetlands. This is for wildlife restoration and so forth.
    So in a summary, this is what this legislation does. This 
will contain concerns with respect to certain issues.
    The Administration has been working with the project 
sponsors and the State of North Dakota over the last couple of 
years to come to closure to the point where we now are of the 
opinion that the administration supports this legislation, even 
though we continue to make minor adjustments and continue to 
have a dialogue with the project sponsors.
    The remaining areas of concern are addressed in that 
portion of my written testimony which addresses outstanding 
concerns.
    Mr. Chairman, that just generally summarizes my testimony. 
I will be glad to answer any questions you might have.
    [The prepared statement of Mr. Martinez follows:]

                      Statement of Eluid Martinez

    My name is Eluid Martinez. I am Commissioner of the U.S. 
Bureau of Reclamation. I am pleased to provide the 
Administration's testimony on H.R. 2918, the Dakota Water 
Resources Act of 1999.
    Mr. Chairman, H.R. 2918 would alter the Garrison Diversion 
Unit of the Pick Sloan Missouri Basin Program as currently 
authorized to increase the funding authorization levels for 
State and Indian tribal, municipal, rural, and industrial water 
supplies, to meet current and future water quantity and quality 
needs of the Red River Valley, to deauthorize certain project 
features and irrigation service areas, to enhance natural 
resources and fish and wildlife habitat, and for other 
purposes.
    First, I would like to express my appreciation to the North 
Dakota delegation for their continued willingness to work with 
the Bureau of Reclamation and the Administration on these 
important matters. In the past several years, a great deal of 
progress has been made on a number of longstanding and 
extremely difficult issues. The delegation, as well as the 
North Dakota Governor's office, State legislative leaders, the 
State Engineer, the Conservancy District and others have worked 
hard along with the Administration, Reclamation and other 
stakeholders to find solutions.
    Since the bill was introduced, the Administration has had 
many hours of discussions with the North Dakota delegation 
working to address the significant issues that are associated 
with this legislation. We believe we have reached agreement on 
nearly all of these issues and we appreciate 4the willingness 
of Mr. Pomeroy and the delegation to include them in this 
legislation. The Administration looks forward to supporting 
this legislation assuming we can resolve the very few remaining 
issues currently under discussion.

Background

    Mr. Chairman, the Garrison Diversion Unit (GDU) has had a 
long history. I will not go into great detail, but there are 
several things that are important to note in order to provide 
context for consideration of this legislation and for the 
issues associated with it.
    The Garrison Diversion Unit in North Dakota is part of the 
Pick Sloan Missouri Basin Program (PSMBP), which was originally 
authorized as part of the Flood Control Act of 1944. Originally 
known as the Missouri-Souris project, the authorization 
envisioned irrigation development of 1,275,000 acres in the 
state of North Dakota.
    In 1957, the Bureau of Reclamation completed the 
feasibility report on the Garrison Unit of the PSMBP. In that 
report, submitted to Congress, Reclamation recommended the 
development of 1,007,000 acres of irrigation and in 1965, 
Public Law 98-108 authorized construction of 250,000 acres as 
the initial stage of the project.
    Over the ensuing years, it became increasingly evident that 
the level of development envisioned in the 1965 Act raised 
environmental and economic concerns. Concerns were also raised 
that the Act might result in violations of the International 
Boundary Water Treaty of 1909 with Canada. Consequently, in 
1984, Public Law. 98-360 directed the Secretary of the Interior 
to appoint a commission to examine the water supply needs in 
North Dakota and to make recommendations on how to reformulate 
the project.
    In December 1984, the Commission issued its final report, 
which included the following major recommendations: (1) Reduce 
irrigation development to 130,940 acres, of which none would be 
located in the Hudsons Bay Drainage and 17,580 of which would 
be developed on two Indian Reservations that were most impacted 
by the initial development; (2) Develop Municipal, Rural and 
Industrial (MR&I) water service for as many as 130 towns and 
rural areas, and three Reservations in the State; (3) Develop a 
water treatment facility to provide MR&I water to Fargo and 
Grand Forks; (4) Mitigate impacts to fish and wildlife, and (5) 
Develop recreational sites.
    In 1986, Congress passed the Garrison Diversion Unit 
Reformulation Act of 1986 (Public Law 99-294), which generally 
authorized the recommendations of the GDU Commission's final 
report.
    In 1990, The Department of the Interior's Office of the 
Inspector General completed a review (OIG Report 90-49) of the 
financial issues associated with the project. The report stated 
that the ``operating costs assigned to irrigators will exceed 
their ability to pay because the project as reformulated does 
not appear to be financially feasible.'' In other words, it 
concluded that the farmers would be unable to pay their 
estimated operations and maintenance (O&M) costs as is required 
under Reclamation law. This fact led to the Inspector General's 
conclusion that the irrigation component of the Garrison 
Diversion Unit was economically infeasible.
    In response to the OIG Report, Secretary Lujan appointed a 
GDU Task Group to evaluate and make recommendations on how to 
proceed with this project, given the findings of the OIG 
report. In October 1990, the GDU Task Group Report recommended 
termination of Federal funding for the development and 
construction of non-Indian irrigation facilities and for the 
principal supply works, but recommended continuation of the 
MR&I program. Since that time, the recommendations of this Task 
Group have been the basis for the policies of both the Bush and 
Clinton Administrations with respect to this Project, and has 
guided subsequent budget requests.
    In 1993, in an attempt to develop a consensus solution to 
meeting the contemporary water needs of the State, the North 
Dakota Water Management Collaborative Process was initiated 
whereby all interested stakeholders were convened.
    In 1995, after the initiation of several studies, and a 
great deal of hard work by the parties, the Collaborative 
Process was terminated without reaching a consensus on how GDU 
should be completed to best meet the contemporary water 
resource needs of the State. However, Reclamation continued to 
work towards completion of the studies it had agreed to 
undertake.
    In 1998, the delegation introduced a revised and 
reformulated Dakota Water Resources Act that altered the 
Garrison Diversion Unit of the Pick Sloan Missouri Basin 
Program as authorized in 1986 to increase the funding 
authorization levels for State and Indian tribal, municipal, 
rural, and industrial water supplies, to meet current and 
future water quantity and quality needs of the Red River 
Valley, to deauthorize certain project features and irrigation 
service areas, to enhance natural resources and fish and 
wildlife habitat, and for other purposes.
    In summary, Mr. Chairman, the Pick Sloan Missouri Basin 
Program, of which the Garrison Diversion Unit is an integral 
part, when conceived foresaw a comprehensive system of flood 
control, navigation improvement, irrigation, municipal and 
industrial (M&I) water supplies, and hydroelectric power 
generation for ten states. That plan envisioned 213 multi-
purpose projects providing over 1.1 million kilowatts of power 
and irrigation of more than 5 million acres.
    Since that time, changes in both the national economy and 
priorities, combined with the development of refined analytical 
tools and criteria have resulted in a significantly different 
project than was originally planned. Six dams have been 
constructed on the mainstem of the Missouri River, and numerous 
multi-purpose projects on the tributaries have been completed. 
Flood control and navigation benefits are greater than 
anticipated with navigation benefits estimated to be about 
$17.7 million per year. Power development has exceeded 
expectations with an installed plant capacity of 220 percent of 
original estimates and hydropower sales averaging $200 million 
annually. Benefits from recreational development have also 
exceeded the original plan. Irrigation development, on the 
other hand, has fallen well short of original goals with less 
than 600,000 (11 percent) of the planned 5.3 million acres 
having been developed.

Issues Where We Have Reached Agreement

    Since H.R. 1137 was introduced in March 1999, the 
Administration and the delegation have met many times and have 
made significant progress in resolving the Administration's 
serious concerns about the proposal. The following describes 
the modification that were made in H.R. 2918 to resolve 
outstanding issues mentioned in past Administration testimony 
on the Dakota Water Resources Act:
        <bullet> MR&I Facilily Funding: The Administration recognizes 
        that additional need exists for good quality water for domestic 
        and other purposes in a large portion of the State. The 
        Administration supports the bill's proposed $200 million 
        authorization of MR&I funding for Indian communities, and the 
        proposed $200 million loan at the project's original 
        authorization interest rate for construction of facilities in 
        the Red River Valley. In addition, the Administration supports 
        extending the current grant authorization to address other 
        State-wide MR&I needs by an additional $200 million, a 
        reduction of $100,000,000 from the previous proposal, with a 25 
        percent local cost-sharing.
        <bullet> This combination of authorizations would provide a 
        total of $600 million in new Federal funding authority to 
        address priority needs within the State for quality water in a 
        way that addresses continuing Federal budget constraints. We 
        also believe it is important that this package of programs 
        includes repayment of funding provided for Red River Valley 
        facilities. This repayment reflects the Administration's long-
        standing policy that in the case of non-Indian rural water 
        supply system development, non-Federal interests should repay 
        100 percent of allocated project construction costs with 
        interest.
        <bullet> Operation and Maintenance: Consistent with long-
        standing cost-allocation procedures, the State would pay: (1) a 
        pro-rata share of OM&R on existing principal supply works, 
        including associated mitigation, based on a percentage of 
        capacity used; (2) 100 percent of OM&R on all new facilities 
        with the exception of facilities required to meet treaty 
        obligations or to comply with Reclamation law; and (3) all 
        energy costs with the same exceptions.
        <bullet> Irrigation Development: The development of 28,000 
        acres of undesignated irrigation ``not located in the Hudson's 
        Bay, Devils Lake or James River drainage basins'' would be 
        required to meet an economic feasibility test with respect to 
        national economic development benefitsz--thereby holding this 
        project to the same standard as other Federal projects.
        <bullet> International Treaty Compliance: Before any 
        construction is undertaken on any part of the system capable of 
        moving water into the Hudson Bay basin, the Secretary of the 
        Interior, in consultation with the Secretary of State and the 
        Administrator of the Environmental Protection Agency, must 
        determine that adequate steps have been taken to meet 
        requirements of the U.S.-Canada Boundary Waters Treaty. This 
        will ensure that the United States' obligation under the 
        Boundary Waters Treaty is carried out. However, the 
        Administration would like the adopted technical changes that we 
        have submitted to make the bill more consistent with treaty 
        obligations.
        <bullet> Four Bears Bridge: Reconstruction of Four Bears Bridge 
        would not be accomplished through the Bureau of Reclamation.
        <bullet> Red River Valley Water Needs Assessment Studies: 
        Completion of a report by the Secretary of the Interior and the 
        State of North Dakota on the comprehensive water quality and 
        quantity needs of the Red River Valley and options for meeting 
        those needs, including delivery of Missouri River water to the 
        Red River Valley, would include consultations with the 
        Environmental Protection Agency, the U.S. Department of State, 
        the U.S. Army Corps of Engineers, and other interested and 
        affected entities, including the states of South Dakota, Iowa, 
        Missouri, Minnesota, and the appropriate Federally recognized 
        Indian tribes.
        <bullet> Status of MR&I Grant Funds: All MR&I grant funds, 
        including accrued interest, would be managed as ``Federal'' for 
        the purposes of compliance with Federal laws such as NEPA and 
        the National Historic Preservation Act.
        <bullet> Completion of the Principal Supply Works: Completing 
        and maintaining the principal supply works identified in the 
        1984 Garrison Diversion Unit Commission Final Report would not 
        be a requirement of law, but would be one of the alternatives 
        to be reviewed to meet the comprehensive water quality and 
        quantity needs of the Red River Valley and the options for 
        meeting those needs.
        <bullet> Natural Resources Trust: There would be no linkage 
        between contributions to the Trust and the Red River Valley 
        Water Supply Project.

Outstanding Concerns:

    With respect to the Natural Resources Trust, however, the 
Administration remains concerned about the proposed elimination of the 
state and local contribution to the Trust that was established by the 
1986 Act. This would give the State no financial stake in the Trust 
Fund and would reduce our efforts to make this into a partnership.
    Furthermore, in addition to the technical changes for international 
treaty compliance, there are technical amendments requested by the 
Treasury Department relating to calculation of the interest rates for 
capital costs and relating to oversight of the Natural Resources Trust 
which we request be included in H.R. 2918.
    We also note that H.R. 2918, as currently drafted, may affect 
revenues and therefore, may effect the Pay-As-You Go provisions of the 
Omnibus Budget Reconciliation Act of 1980.
    Mr. Chairman, I would like to reiterate my appreciation to the 
North Dakota delegation and others for working with the Administration 
to address the significant issues that are associated with this 
legislation. A great deal of hard work has taken place and significant 
progress has been made. I would like to continue that effort to work 
with the project sponsors and supporters as well as the opponents to 
try to find a solution to what has become a long standing and difficult 
issue.
    That concludes my statement, I would be happy to answer any 
questions.

    Mr. Doolittle. Thank you.
    Our next witness is Mr. Tex Hall. Mr. Hall is Chairman of 
Three Affiliated Tribes, the Fort Berthold Indian Reservation.
    Mr. Hall.

                     STATEMENT OF TEX HALL

    Mr. Hall. Thank you, Chairman Doolittle and members of the 
Subcommittee, and Congressman Pomeroy from our State of North 
Dakota. I really appreciate being given the opportunity to 
present testimony on behalf of the Dakota Water Resources Act, 
H.R. 2918.
    Just briefly, Mr. Chairman and members of the Subcommittee, 
my tribe is home of the Mandan, Hidatsa, and Arikara tribes. We 
are known for the homeland of Sakakawea. Our tribe wintered 
Lewis and Clark in 1804 when they came up the river. She served 
as a young Indian guide to the expedition, and without her 
assistance, it would not have been successful for the route to 
the Pacific Northwest.
    The reason I say those things is that the two most probably 
devastating acts to my people were the smallpox epidemic 
shortly after that, with the steamboats coming in after 
Sakakawea helped lead the way to the trade routes in 1837, 
which almost decimated the thousands of Mandans to only 400.
    Then the second most devastating act was the flooding of 
our homelands. As our Governor and members of our congressional 
delegation had mentioned, it was over 500,000 acres that was 
lost. We lost 156,000 acres. Our tribal business council at 
that time went on resolution to not support the flooding of our 
homeland because it was our capital of Elba Woods.
    When the government did eventually say, you have no choice, 
we are going to flood you to make way for this dam, they made 
many promises to us. One was a new hospital, a new school, and 
a rural water system. We don't have any of those things yet 
today, and it has been since 1944, members of the Subcommittee.
    We do have some efforts that are being made with our 
economic development packages, but I can speak for my tribe, 
and I cannot speak for all of the other tribes of North Dakota, 
but I was with the other tribes yesterday, and they have all 
endorsed the Dakota Water Resources Act unanimously for the 
$200 million for the Indian tribes for the four reservations in 
North Dakota. They have unanimously supported that.
    First, I want to say clearly, on behalf of the Three 
Affiliated Tribes, we strongly support H.R. 2918 and urge its 
immediate passage. We also are understanding of some of the 
concerns, Mr. Chairman, that you had raised earlier. But we 
feel that those concerns I think can be worked out. Our tribe 
and the other tribes of North Dakota should not be held up.
    They mentioned one of those bottles of water earlier. As a 
matter of fact, as the chairman of my tribe and probably one of 
the more fortunate members of my tribe economically, I took a 
shower in one of those colored bottles of water this morning, 
so I, too, have to haul my water, as well as many of the 
elderly people and many of the patients that are on dialysis.
    We literally, in every community, and we have six 
communities on Fort Berthold, and we literally have to have 
pickup trucks and small ton trucks, so we put cistern tanks in 
a lot of those homes because the water was simply like that. 
Some of our well water, we have high sodium, which leads to 
hypertension and heart attacks. We also have--which is double 
the standard, the regular standards on Fort Berthold. We are 
also 12 times higher than the national average for diabetes.
    We feel that these things did not occur before the flood, 
so we are still living with this devastating piece of 
legislation that flooded our capital and our homelands.
    Mr. Chairman, we see opportunity here today, and we 
testified on the Senate side earlier this year. We are very 
pleased that it is in this Committee, in this Subcommittee here 
today. Again, I know there are particular problems that have 
been mentioned, but I feel it has been a bipartisan effort 
within our State of North Dakota, and as well as there is 
unanimous support of our tribe. I just came from home this 
morning and all the people and the membership of the Fort 
Berthold are all urging the passage of this Act.
    Finally, the new millenium is coming upon us. I just feel 
that members of my Nation should not have to drink and bathe 
daily in water such as this. I think it is the Federal 
Government's commitment, that when they flooded us, they said, 
we promise we will rebuild and replace what we took from you.
    My tribe made the ultimate sacrifice for the 156,000 acres 
to be flooded. We hope and urge the support of the Subcommittee 
for the immediate passage of the Dakota Water Resources Act. We 
thank you for the testimony today. I stand to answer any 
questions that you may have.
    [The perpared statement of Mr. Hall follows:]

        Statement of Tex Hall, Chairman, Three Affiliated Tribes

    Chairman Doolittle, Members of the Subcommittee:
    Thank you for the opportunity to present testimony today 
concerning H.R. 2918, the ``Dakota Water Resources Act of 
1999.'' The Three Affiliated Tribes of the Fort Berthold 
Reservation are the Mandan, Hidatsa and Arikara Nations. We 
also testified last year in support of a similar bill presented 
to the 105th Congress, and our testimony today is not very 
different from the information we provided earlier. However, 
our needs for the water systems to be authorized by H.R. 2918 
only become greater as our population continues to increase.
    We strongly support H.R. 2918 and urge its passage, as it 
provides long promised and much needed funding for our 
municipal, rural and industrial water needs, as well as needed 
funds for a new bridge over Lake Sakakawea, to replace a bridge 
whose center spans have not been maintained and which are more 
than 60 years old.
    Further, we again want to thank our Congressional 
delegation, Governor, Ed Schafer, and the many others who have 
worked on this legislation for their continued recognition of 
our needs in this legislation, and their willingness to 
consider our views. We look forward to working with them to 
seek passage of this vital legislation.

Background

    As you may recall, the Three Affiliated Tribes, along with 
a remarkable young Indian woman, Sakakawea, greeted Lewis and 
Clark in the early 19th century as they made their expedition 
of discovery up the Missouri River and over to the Pacific 
coast. Even prior to Lewis and Clark, our Tribes had lived 
together peacefully for hundreds of years along the Missouri 
River. The Mandan particularly were agricultural, and tended 
corn and other crops.
    As we, like all other Indian people, were forced to live on 
reservations in the late 1800's, we were able to retain a spot 
along the Missouri River where we could maintain to a 
considerable degree a self-sufficient life style, tending to 
our crops and livestock on the rich botton-lands along the 
river. Few of our members were ever on welfare. Our 
reservation, which straddles the Missouri River, has been 
approximately 1,500 square miles in size since the late 1880's, 
although since 1910 almost one-half of the reservation has been 
owned by non-Indians and more than 15 percent of the area is 
now covered by the water of the Lake Sakakawea reservoir behind 
Garrison Dam.
    Despite our protests, our Council resolutions, our 
delegations to Washington and our tears, our way of life and 
the lives of our Tribal members were turned upside down when 
the Garrison Dam was completed in the early 1950's. Over 
156,000 acres of our best agricultural lands were taken from us 
for the creation of Lake Sakakawea behind the dam, and the land 
taken from us represented 69 percent of the land needed for the 
reservoir. By October 1, 1952, most of our Tribal members were 
forced from their homes because of the ``great flood,'' as many 
of our elders call the formation of the reservoir. Our once 
close-knit communities, separated only by a river, which was 
then connected near Elbowwoods by a bridge, were now split 
apart and separated by as much as 120 miles. Our rich farmland 
and self-sufficient lifestyle were gone forever.
    Before the dam was completed, in addition to the inadequate 
compensation we received for our lands, we were promised many 
things by the U.S. Army Corps of Engineers, whose generals came 
and listened to our protests and our descriptions of what we 
would lose if the dam was built. Among other things, we were 
promised new infrastructure to allow us to rebuild our 
communities, including a new hospital, which was never built; 
community buildings, only now being completed, partly with 
Tribal funds; and a rural water system, using some of the water 
from the lake for which we had sacrificed our way of life.
    Fifty years later that rural water system is still only 
partly constructed. In just the past four years, several of our 
communities, which are generally a few miles from the lake, 
have been provided with adequate water from Lake Sakakawea. But 
the current system does not yet begin to serve our real needs, 
as specified below in more detail.
    In 1985, after nearly 33 years, and much lobbying in 
Washington and in our state capital, the U.S. Secretary of 
Interior established a committee to make recommendations for 
just compensation to the Three Affiliated Tribes and the 
Standing Rock Sioux Tribe for their losses. The Standing Rock 
Sioux Tribe had suffered also, like the Three Affiliated 
Tribes, following the construction of the Oahe Dam near Ft. 
Pierre, South Dakota. This Committee was called the Garrison 
Unit Joint Tribal Advisory Committee (GUJTAC, or ``UTAC''), 
which issued its final report on May 23, 1986. A copy of this 
Committee Report, which we commonly refer to as the ``JTAC'' 
report has been provided to our Congressional delegation in the 
past and to this Committee when we have testified previously, 
and I request that the Report be made a part of the record of 
this hearing, as it provides substantive justification for some 
of the components of H.R. 2918 that directly affect us.
    Partly as a consequence of the JTAC report, some of the 
needs for rural infrastructure of the Three Affiliated Tribes 
and the Standing Rock Sioux Tribe were included in the Garrison 
Unit Reformulation Act of 1986, Public Law 99-294. These 
included partial funds for a municipal, rural and industrial 
water system (MRI), shared between the Standing Rock Sioux 
Tribe and the Three Affifiated Tribes, and authorization for 
irrigation projects. The understanding of Congress when the 
Garrison Unit Reformulation Act was passed is that Congress 
knew the funds were insufficient, and expected a full report of 
the actual needs of the Fort Berthold Reservation at some later 
date. That later date has arrived.
    While the irrigation projects authorized for the Three 
Affiliated Tribes were never funded, we did receive a part of 
the $20 million which was eventually appropriated over the next 
11 years, funds which have ``owed some of our MRI water system 
needs to be satisfied. A summary of our current water needs is 
included in this written testimony.
Subcommittee on Coast Guard and Navigation

Principal Benefits of H.R. 2918 for the Three Affiliated Tribes 
and northwest North Dakota

    Now, in 1999, the State of North Dakota is back before 
Congress seeking further authority to complete what has been 
known as the Garrison Diversion Project. The state rightfully 
states that it has been waiting more than 50 years for the 
completion of this project. We too, have been waiting for more 
than 50 years for the infrastructure promised to us as a result 
of the completion of the Garrison Dam, and are asking for what 
was promised us before our homes were flooded and our land 
taken.
    This bill has three features which are of tremendous 
importance to the Three Affiliated Tribes and for all of 
northwest North Dakota, including our MRI water system needs 
and continued authorization for approximately 15,000 acres of 
irrigation projects which were meant to replace lost 
agricultural lands. These are discussed in more detail below.

1. Municipal, rural and industrial water needs (MRI)

    H.R. 2918 provides that the four tribes in North Dakota 
share in a total authorization for MRI water needs of $200 
million. The amounts needed by each tribe, and as agreed to by 
the Tribal governments, are specifically stated in the bill, so 
that there need be no guess work afterwards about how much each 
tribe should receive. The share for the Three Affiliated Tribes 
is $70 million, contained in Section 10 of the bill.
    As required by the Committee Report on the Garrison Unit 
Reformulation Act, Public Law 99-294, we have documented our 
water needs to Congress and have provided detailed studies of 
these needs to our Congressional delegation. We would ask that 
the Committee recognize those reports in its final Committee 
report language concerning the bill.
    We believe that the figure of $70 million will be 
sufficient for our water system needs, if provided over time 
and indexed for inflation as currently allowed by law. The 
funds authorized, once appropriated, will provide, among other 
things, much needed usable drinking water that will contribute 
greatly to the health, economic and environmental needs, of 
approximately 10,000 residents of the reservation, including 
non-Indian and Indians alike. The system, as designed, will be 
able to become part of a larger regional water system that will 
have an impact far beyond the Fort Berthold Reservation.
    At present, our ground water supply over most of the 
reservation is very poor. Dissolved solids, salts and other 
minerals often makes available water unusable for cooking, 
washing, drinking, and even home gardening. As an example of 
the danger of the poor water, sodium concentrations of more 
than double normal standards, often present in reservation well 
water, can aggravate hypertension, a common affliction on the 
Reservation.
    Even more of a problem are homes that have no local water 
source at all. Close to the end of the 20th century, we still 
have many families who must haul in their water from some 
outside source, often many miles away. In addition to the 
obvious inconvenience, this causes an undue risk of water borne 
diseases. Also, the many private wells on the reservation are 
simply undependable, often with low flows, and generally 
provide poor quality water, as well.
    Further documentation of the problems we face was published 
in the September, 1998 issue of the magazine North Dakota 
Water, a publication produced for North Dakota water users. The 
sub-title of the article is called ``Reservations lack access 
to quality water systems.'' The article says, among other 
things: ``There is a tremendous need for rural water fines,'' 
which applies both the Fort Berthold Reservation and the 
Standing Rock Sioux Reservation, and it documents the plight of 
a young family on our reservation which has to constantly haul 
water, as well as the sorry condition of our New Town water 
treatment plant. New Town is the largest town on the 
reservation, with both a large Indian and non-Indian 
population. We would ask that a copy of the article be made a 
part of the official record of this hearing.
    As we all can appreciate with the Garrison Diversion 
Project, the lack of good water systems at present blocks 
effective economic development in most of our reservation 
districts, which we call ``segments.'' Unemployment is still a 
large problem on our reservation, even with the modest success 
of our casino, Mandaree Enterprises, the Northrup Grumman plant 
in New Town and other Tribal enterprises we are still 
developing. The 1990 census pegged our average per capita 
income at $4,849, one-third of the national average.
    Now, we are faced with welfare reform requirements of 
meeting national goals for work participation rates within a 
specified timetable over several years. This means that 
economic development must be of the highest priority for our 
reservation. And, as we all know, economic development requires 
good water. Projects that are possible users of good water 
include a feed lot, meat processing plant, fiber board plant 
and ethanol plant, as well as further development of 
recreational areas along the shore of Lake Sakakawea, new 
housing development, expansion of various tribal facilities, 
and so forth.
    At the same time as water systems are developed and water 
use is increased on the reservation, we must also be mindful of 
environmental concerns, such as wastewater disposal. We know 
that a successful MRI program will not only address water 
distribution needs, but also wastewater disposal needs.
    The major components of the needed MRI projects are as 
follows, segment by segment:

        1. Mandaree: (west side of reservation, west of lake) In 
        Mandaree, the water distribution system needs to be expanded 
        and the existing system improved. Mandaree already has an 
        adequate water treatment plant and water intake.
        2. White Shield: (southeast corner of reservation, north of 
        lake) In White Shield, again, the water distribution system 
        needs to be expanded. A new water treatment plant has just been 
        completed, but the water intake was completed in 1991.
        3. Twin Buttes: (south side of reservation, south of lake) 
        While Twin Buttes already has a water intake and water 
        treatment plant. While both facilities have been recently 
        upgraded, the water distribution system needs to be expanded 
        for economic expansion to take place. For reference, Twin 
        Buttes is 120 miles from New Town.
        4. Four Bears: (northwest corner of reservation, west of lake) 
        The Four Bears area has a water intake and a recently completed 
        water treatment plant, but the distribution system needs 
        expansion.
        5. New Town: (also northwest part of reservation, east of lake) 
        New Town, the largest community on the reservation, has no 
        water intake system from the lake which is less than a mile 
        from the center of town, the best and closest supply of fresh 
        water. While the aquifer under New Town supplying the city's 
        wells is a relatively good source of water, when the lake is 
        low, the aquifer is low and water quality declines. Thus, New 
        Town needs a water intake system and improvements to its water 
        treatment plant, as well as an expanded distribution system.
        6. Parshall: (northeast part of reservation, east of lake) 
        Parshall, also called Lucky Mound, has a water intake from the 
        lake, which isn't always working. Further, the water intake is 
        not deep enough in the lake, and doesn't function at all when 
        the lake is low. Parshall needs a new water intake, improved 
        water treatment plant and an expanded distribution system.
    I want to emphasize that we need prompt action on supplying our 
needs, because we are no longer receiving MR&I funds from the previous 
authorization in the 1986 Garrison Reformulation Act. It is also 
important to note that each of the newly expanded distribution systems 
will allow for future expansion, both within and outside of the 
reservation areas, thus benefiting everyone in the area. These are just 
a few of the principal elements of the MRI projects we were promised 
more than 45 years ago.

2. Irrigation:

    In addition, I want to urge this Committee to retain the 
authorization for irrigation on the Fort Berthold reservation contained 
in H.R. 2918. As noted above, we lost 156,000 acres of land, much of it 
prime bottom land as a result of Garrison Dam, and the $63 million 
irrigation dollars authorized in the Garrison Unit Reformulation Act of 
1986 were to be used to help us recover some of that good farm land. 
Our studies show that irrigation is feasible in the Lucky Mound--White 
Shield areas.
    We do continue to have several remaining concerns about the 
legislation:
        Reserved water rights, We would ask that language be included 
        in the final Committee report on this legislation that would 
        recognize the reserved water rights of the Three Affiliated 
        Tribes to water from the Missouri River and its tributaries 
        that are within the Fort Berthold Reservation, known as Winters 
        doctrine rights, and that it be made clear in the final 
        Committee report that this legislation, including the part of 
        it which allows for diversion of water from the Missouri River, 
        does not in any way diminish or compromise those rights. This 
        was a fundamental consideration of the JTAC Report, attached. 
        Our water rights as a Tribe are no less important than those 
        expressed as a stated purpose of H.R. 2918: ``to preserve any 
        existing rights of the State of North Dakota to use water from 
        the Missouri River.''
    Irrigation. We would also request that consideration be given to 
expand our authority for irrigation acres, should such additional acres 
prove feasible. As mentioned above, our best agricultural lands were 
taken from us. We are hopeful that in the future, some additional lands 
can be successfully irrigated and added back to our agricultural land 
base.
    JTAC Report Finally, we would ask that in the final Committee 
report accompanying the bill, language be included that states that 
this legislation fulfills some of the goals set forth in the Garrison 
Unit Joint Tribal Advisory Committee Report, dated May 23, 1986, as 
attached. Such language simply recognizes what the bill actually does, 
and helps explain why portions of this legislation are dealing with the 
needs of the North Dakota tribes.
    We also want to note that this bill is now substantially different 
than it was when originally introduced in the last Congress. Money for 
the replacement of Four Bears Bridge across the Missouri River, and 
within the Fort Berthold Reservation, has been deleted, $43 million, 
and other methods of financing the Four Bears Bridge, which is badly in 
need of replacement and which is the only bridge for a distance of 200 
miles along the river, are being considered outside of this piece of 
legislation. The Four Bears Bridge, inadequate when constructed is just 
another example of infrastructure needs of the Three Affiliated Tribes 
that have not yet been provided to replace what we had before the 
Garrison Dam was constructed.
    In summary, we believe we, the Three Affiliated Tribes, and indeed, 
all of the residents of the Fort Berthold reservation have waited long 
enough for our fundamental water needs to be met. To have people on our 
reservation still carrying water to their homesites is unacceptable in 
the late 20th century. For us, the passage of H.R. 2918 cannot come 
soon enough. We cannot accept any alternative.
    Thank you for the opportunity to testify before this Committee.

    Mr. Doolittle. Thank you.
    Our next witness is Mr. James Chandler, Counsel of the U.S. Section 
of the International Joint Commission.
    Mr. Chandler.

   STATEMENT OF JAMES CHANDLER, COUNSEL, U.S. SECTION OF THE 
                 INTERNATIONAL JOINT COMMISSION

    Mr. Chandler. Mr. Chairman, thank you for inviting the 
International Joint Commission to participate in this hearing. 
I am pleased to be here.
    First, I should say that the International Joint Commission 
is an international organization and it does not get involved 
in the merits of specific proposed legislation. Therefore, I am 
not here either in support of or in opposition to the bill 
before you.
    However, since North Dakota is a border State and many of 
the water-related projects in North Dakota have either real or 
perceived impacts in Canada, we thought it would be useful to 
provide the Committee with some information regarding the 
Boundary Waters Treaty of 1909 and the International Joint 
Commission.
    The treaty provides much of the context for U.S. and 
Canadian relations on environmental issues, and the IJC was 
established as one mechanism to help the governments achieve 
their goals under the treaty.
    The purpose of the treaty is to provide a framework for 
resolving and avoiding problems along the U.S.-Canadian border. 
It contains a few basic principles. These include freedom of 
navigation in boundary waters, a requirement that projects in 
boundary waters or in some cases a river flowing across the 
boundary that affect waters on the other side have 
international approval, and also the requirement that waters 
flowing across the boundary not be polluted to the injury of 
health or property in the other country.
    The treaty also established the IJC and gave us a number of 
responsibilities. The Commission is composed of six members, 
three from the U.S. and three from Canada. The three U.S. 
Commissioners are appointed by the President and confirmed by 
the Senate. Even though the Commission is organized in two 
sections, one in Washington and one in Ottawa, the 
Commissioners are not under instructions from their 
governments, as is the case in most international 
organizations. They act as a unitary body, and in fact, as 
required by the treaty, they take an oath to carry out the 
purposes of the treaty at the first meeting after their 
appointment.
    The Commissioners are supported by small staffs in the two 
capitals, but more importantly, by many international boards 
across the border which are appointed by the Commission but 
drawn largely from Federal, State, and provincial agencies.
    The Commission helps the governments meet the goals of the 
treaty in two major ways. First, we have approved approximately 
20 projects along the border that affect water levels on the 
other side, and we have ongoing regulatory responsibilities for 
many of these through boards of control drawn from both 
countries.
    Second and perhaps more relevant for North Dakota issues, 
we examine questions or issues that are referred to us by the 
two governments. In these cases, which come to us under article 
9 of the treaty, we provide a mechanism that can help the two 
countries jointly examine issues and develop common or agreed 
solutions to issues along the border.
    The IJC is usually asked by the governments to examine the 
facts of a situation and provide its conclusions and 
recommendations to the governments for their consideration. 
None of the IJC's findings or conclusions is binding on the 
governments, but the input of IJC studies is often the basis 
for agreements or further negotiations between governments.
    Sometimes the questions from governments involve issues 
that are of equal or similar concern to both countries. 
Examples of this are Great Lakes water quality, and how to 
avoid damages from events such as the 1997 flooding in the Red 
River Valley, North Dakota.
    At other times, the questions have involved proposed 
actions in one country that might have adverse affects in the 
other. Examples include a thermal power plant in Saskatchewan 
on the Poplar River that had potential impacts in Montana, 
proposed coal mining in British Columbia with impacts in 
Montana, and the Garrison Diversion in North Dakota.
    There are times when the IJC is asked to monitor conditions 
once a study is completed. On occasion, we are asked to take 
another look at issues in light of new information or changed 
conditions. Over the years we have carried out about 55 studies 
such as this.
    In all of these cases, it has been the Commission's 
practice to establish an international study board or task 
force to carry out the actual investigation. These 
international groups, which are half Canadian and half 
American, are drawn largely from Federal, State, and provincial 
agencies, although increasingly we are including members from 
universities and other nongovernmental institutions. Subgroups 
and committees are drawn from the same sources, and the idea 
here is to borrow people from agencies and other institutions 
that need to be a part of a successful outcome, bring them 
together as a study team, and let them grapple with key facts 
and issues in an interdisciplinary, binational way.
    All members are appointed in their personal and 
professional capacities, and not as representatives of their 
agencies. The agencies are not considered to be bound in any 
way by the views of their employees. We also involve the public 
to the extent we can in our work.
    Our experience is that through this process a binational 
consensus will emerge, usually from the bottom up, at least 
regarding the facts, and often regarding issues, as well. Such 
a binational consensus makes it easier for the two governments 
to reach agreements and thereby resolve or avoid disputes.
    Mr. Chairman, I would be happy to answer any questions.
    [The prepared statement of Mr. Chandler follows:]

     Statement of James G. Chandler, Legal Adviser, U.S. Section, 
                     International Joint Commission

    Thank you for inviting the International Joint Commission, 
United States and Canada, to participate in this hearing. I am 
James Chandler, Legal Adviser to the United States Section of 
the Commission, and I am pleased to be with you today.
    Because North Dakota is a border State and many water 
related projects in the State have real or perceived effects in 
Canada, we thought it would be useful to the Subcommittee to 
have some background information about the Boundary Waters 
Treaty of 1909 and the International Joint Commission or IJC. 
The Treaty provides much of the context for U.S.-Canadian 
relations on environmental issues. and the IJC was established 
by the Treaty to help the governments achieve their goals.
    The purpose of the Boundary Waters Treaty is to provide a 
framework for resolving and avoiding problems along the U.S.-
Canadian border.
    It contains a few basic principles. These include:

        <bullet> Freedom of navigation in boundary waters,
        <bullet> The requirement for international approval for 
        projects in shared boundary waters and, in some cases, rivers 
        flowing across the boundary which affect water levels in the 
        other country, and
        <bullet> The requirement that water flowing across the boundary 
        not be polluted to the injury of health or property on the 
        other side of the boundary.
    The Treaty also established the LIC and gave it several 
responsibilities.
    The IJC is composed of six members, three from the United 
States and three from Canada. The three U.S. Commissioners are 
appointed by the President and confirmed by the Senate. Even 
though the IJC is organized into a U.S. Section and a Canadian 
Section, Commissioners are not under instructions from their 
governments as is the case in most international organizations. 
They take an oath to the Boundary Waters Treaty and are 
committed to working together to make decisions that are in the 
common interest of both Countries. Commissioners are supported 
by small staffs in Washington and Ottawa and, more importantly, 
by numerous international boards appointed by the IJC and drawn 
largely from Federal, state and provincial agencies.
    The IJC helps the Governments meet the goals of the Treaty 
in two major ways.
    First, we have approved some 20 or so projects in rivers 
that flow along and across the border. In many of these cases 
we have ongoing regulatory responsibilities which we carry out 
through international boards of control.
    Second, and perhaps more relevant to issues in North 
Dakota, we examine questions or issues that are referred to us 
by the two governments. In these cases, which come to us under 
Article IX of the Treaty, we provide a mechanism that can help 
the two countries jointly examine issues and develop common or 
agreed solutions to issues along the border.
    The IJC is usually asked by the governments to examine the 
facts of a situation and provide its conclusions and 
recommendations to the governments for their consideration. 
None of the IJC's findings or conclusions is binding on the 
governments, but the output of IJC studies is often the basis 
for agreement or further negotiations between the governments.
    Sometimes the questions from governments involve how to 
address issues that are of equal or similar concern to the two 
Countries. Examples include how to improve Great Lakes water 
quality or how to reduce the amount of damage from events such 
as the 1997 flood in the Red River Basin.
    At other times, the questions have involved proposed 
actions in one country that might have adverse effects in the 
other or raise the concern that they might have adverse 
effects. Examples include a thermal power plant in Saskatchewan 
on the Poplar River. A proposed coal mine in British Columbia 
on the Flathead River, and the Garrison Diversion Unit in North 
Dakota.
    There are times when the IJC is asked to monitor conditions 
once a study is completed. On occasion we are asked to take 
another look issues in light of new information or changed 
conditions. Over the years. the IJC has carried out over 55 
studies at the request of the governments.
    In all of these cases. it has been the IJC's practice to 
establish an international study board or task force to carry 
out the actual investigation. These international groups, which 
are half American and half Canadian, are drawn largely from 
Federal, state and provincial agencies. although increasingly 
we are including members from universities and other non-
governmental sources. Subgroups and committees are drawn from 
many of the same agencies and institutions. The idea is to 
borrow people from agencies and other institutions that need to 
be a part of a successful outcome, bring them together as a 
study team, and let them grapple with the key facts and issues 
in an interdisciplinary, binational way.
    All members are appointed in their personal and 
professional capacities and not as representatives of their 
agencies. The agencies are not considered to be bound in any 
way by the views of their employees. The IJC also uses a 
variety of public consultation initiatives to assure that 
affected interests are given an opportunity to be a part of our 
work.
    Our experience is that through this process, a binational 
consensus will emerge, at least regarding the facts of a 
particular case and often regarding the issues as well. Such a 
binational consensus makes it easier for the two Federal 
Governments to reach agreements and thereby resolve or avoid 
disputes.

    Mr. Doolittle. Thank you. Our final witness will be Mr. 
Dave Koland, Executive Director of the North Dakota Rural Water 
Systems Association. Mr. Koland.

  STATEMENT OF DAVE KOLAND, EXECUTIVE DIRECTOR, NORTH DAKOTA 
                RURAL WATER SYSTEMS ASSOCIATION

    Mr. Koland. Thank you, Mr. Chairman. In the interests of 
curtailing the length of the hearing, I am going to summarize 
my summary of my written testimony that you have in front of 
you. But there are some points that I do need to make. One of 
them that has been made again and again, this good drinking 
water is still just a dream for many people in North Dakota. 
There are too many people that turn their tap on every morning 
and this is the water they get out of it. There are no other 
alternatives than what we are proposing to you.
    What is happening in North Dakota is happening all across 
rural America, but more so in North Dakota. Fifty-four percent 
of our communities now have less than 200 people living in 
them. In the 1930s, that percentage was about 30 percent. 
People are migrating from our small towns into our urban 
centers. It's selective migration. It is the young adults who 
are leaving our communities looking for jobs. So one of the 
keys that we have to talk about is preserving the rural life-
style that we have.
    We have a work ethic in North Dakota that is second to 
none. North Dakota workers are more inventive, more resourceful 
and more profitable than workers anywhere else in the world. 
It's my contention that comes from the environment that they 
are raised in, the small communities, the way of life that you 
can find only in rural America. Our Nation is well served when 
we invest in the infrastructure that will promote and sustain 
the growth of those communities. Rural water systems provide 
water to 210 communities in North Dakota right now, but there 
are still community after community that are waiting for a 
clean safe supply of drinking water. The key to providing that 
water in rural North Dakota has been the MR&I program and the 
Grant/Loan Program for Rural Development. Without those two 
programs, the exodus from rural North Dakota would have indeed 
been a stampede.
    North Dakota people are willing to pay for water. The 
average cost by the rural water system that a consumer pays for 
6,000 gallons of water a month is about $50 a month. EPA's 
guidelines says that the affordable limit or threshold for 
water is about $40 a month. Our water systems that are being 
built now are asking people to pay $60 a month. They will pay 
that to get rid of this water. Without the grant programs that 
we are talking about in this legislation, the water rates that 
we would have to ask people to pay are $130 to $150 a month. 
It's just not going to happen. The exodus from our rural 
communities will continue. We will be left with communities 
that are made up of senior citizens, period. The young people 
will leave and will be gone. We know that in communities where 
we have rural water now and in farms where we have rural water 
now they come back. Homes are salable when there is a decent 
supply of rural water. The homes that do not have rural water 
stand empty. No one wants to bring their family into a home 
where they turn the tap on and this is the kind of water they 
get out of it.
    So what we are asking you is to make an investment that 
will provide one of the basic necessities of life, clean safe 
water. We are asking you to make an investment that will turn 
empty houses into homes. We can make an investment today that 
will change the future of rural North Dakota.
    Mr. Chairman, it is my belief that an investment in the 
Dakota Water Resources Act will help North Dakota continue to 
provide America with the best workers in the world.
    [The prepared statement of Mr. Koland follows:]

 Statement of David J. Koland, Executive Director, North Dakota Rural 
                       Water Systems Association

    Mr. Chairman and members of the Committee, my name is Dave 
Koland. I serve as the Executive Director of the North Dakota 
Rural Water Systems Association. Our association has 31 rural 
water systems and 225 municipal water systems as members.
    I also serve as the Executive Director of the Eastern 
Dakota Water Users, an organization of 13 cities and 12 rural 
water systems in the Red River Valley.
    Since the earliest days of our state, the people who 
settled here were driven by the need for water. The first 
settlements were located along streams or lakes. The 
homesteaders who came later dug shallow wells or endured by 
hauling water from a nearby creek or slough. Many had to move 
on when the dry years withered their crops and left them 
without the precious water needed to survive.
    Good drinking water is still just a dream in many rural 
North Dakota communities. Turning on the tap each morning 
brings brown smelly water instead of the clear fresh water the 
majority of people in North Dakota enjoy.
    Small communities have few alternatives to provide their 
citizens with a dependable supply of clean, safe water. Many 
await the construction of regional water systems such as the 
Southwest Water Authority and the Northwest Area Water Supply 
project, or for funding to expand the existing rural water 
system that serves their area.
    Rural North Dakota is migrating to our four largest cities. 
According to the Census Data Center, 54 percent of our towns 
now have populations of less than 200 compared to only 30 
percent in the 1930's. During that same period, the number of 
farms in North Dakota has shrunk from 86,000 to less than 
30,000 today. The exodus of our population to the larger cities 
has not been evenly spread across the age groups but instead 
has been concentrated in the childbearing age groups, young 
adults seeking employment opportunities in the urban centers.
    North Dakota workers are a highly prized resource of our 
state. National and international companies have discovered 
that North Dakota workers are more productive, more inventive, 
more resourceful, and more profitable than workers are anywhere 
else in the world. They know, because for the last 20 years, we 
have been steadily exporting our young people to every corner 
of our nation. They are highly sought after employees of many 
major corporations.
    That outstanding work ethic is enhanced and nurtured in the 
young people of our state by the lifestyle and experience of 
living in a rural community. The values and priorities of our 
young citizens are molded and shaped by that special 
environment that is found most often in the small towns across 
our country. Our nation is well served when we invest in the 
infrastructure that will promote and sustain the growth of 
these communities.
    Rural water systems now provide clean safe water to 210 
communities in North Dakota. But many still wait for the water 
they so desperately need. Communities like Mohall (931 people), 
Munich (310 people), and Glenfield (118 people) have few other 
alternatives to provide their citizens with clean, safe water.
    The key to providing water to the small communities and 
rural areas of North Dakota has been the Grant and Loan program 
of Rural Development and the Municipal, Rural, and Industrial 
(MR&I) program of the Garrison Conservancy District. Without 
the assistance of these two grant programs, the exodus from the 
rural areas would have been a stampede.
    The desperate need for clean, safe water is evidenced by 
the willingness of North Dakota's rural residents to pay water 
rates well above the rates the Environmental Protection Agency 
(EPA) consider to be affordable. The U.S. EPA Economic Guidance 
for Water Quality Standards Workbook states that rates greater 
than 1.5 percent of the median household income (NMI) are not 
only unaffordable but also ``may be unreasonable.''
    In North Dakota, that translates into a monthly cost of 
$319.34 (ND 1996 MHI=$31,470). The average monthly cost on a 
rural water system for 6000 gallons of water is currently 
$48.97. Only two systems in the state have a monthly cost below 
the ``maximum affordable cost'' set out in the EPA guidance. 
Twelve systems must charge their consumers $50 or more with one 
system charging 170 percent of the ``affordable rate'' or 
$66.00/month for 6000 gallons.
    The water rates in rural North Dakota would soar to 
astronomical levels without the 75 percent grant dollars in the 
MR&I program. For instance our current rates would average a 
truly unaffordable $134.19/month or a whopping 5.12 percent of 
the Median Household Income. They could have ranged as high as 
$190.80/month or a prohibitive 7.3 percent of MHI.
    Across North Dakota, we have seen the impact of providing 
good water to rural areas and witnessed the dramatic change in 
small communities. Homes once occupied by aging widows are soon 
rented or sold to young adults. While houses and farmsteads 
without rural water stand empty.
    Schools that once faced declining enrollments now have to 
deal with an influx of new students. Employers confronted with 
a tight labor market in the urban centers are seeking new ways 
to tap the underutilized work force in the rural areas. The 
people waiting for water in our rural communities are willing 
to pay more than what the experts consider an affordable price 
for clean safe water.
    The key ingredient we are missing is WATER. We have the 
roads, the communications, the energy, the schools, the most 
productive workforce in the world, everything except WATER!
    We can make an investment today that will provide one of 
our basic needs--clean safe water. We can make an investment 
today that will turn empty houses into homes. We can make an 
investment today that will change the future of rural North 
Dakota
    Mr. Chairman, it is my belief that an investment in the 
Dakota Water Resources Act will help North Dakota continue to 
provide America with the best workers in the World.
[GRAPHIC] [TIFF OMITTED] T4145.031

[GRAPHIC] [TIFF OMITTED] T4145.032

  STATEMENT OF HON. EARL POMEROY, REPRESENTATIVE AT LARGE IN 
            CONGRESS FROM THE STATE OF NORTH DAKOTA

    Mr. Pomeroy. Mr. Chairman, in closing, first let me thank 
you and each committee member. You have now invested a 
considerable amount of time on the issue that is extremely 
important to my
district. On a personal level, I appreciate it. I offer up my 
time to attend to an issue in your district that you might want 
me to attend to. I owe it to you. Thank you.
    Three issues of controversy will surface in the course of 
this hearing as you study this matter. I would just like to 
briefly speak to them in closing. Environment, Canada, cost. 
First the environment.
    The environmental concerns raised by the initial 1964 
project were extraordinarily different in the Dakota Water 
Resources Act in front of you. This Act actually deauthorizes 
the Federal subsidized irrigation which has proven in the past 
to be such a significant point of contention. Those of you who 
worked with this plan for a while will remember the Lone Tree 
Reservoir as the single point of controversy, an area of 33,000 
acres acquired by the Federal Government to be a reservoir and 
a staging area of how we were going to send the water around, 
deauthorized as a reservoir because it is federally owned by 
now, permanently turned into a wildlife area. It already serves 
as a wonderful resource for wetlands, wildlife habitat and is 
used by hunters and sportsmen and environmentalists alike. That 
is consistent with much of what has been done with the plan. In 
fact, because the initial mitigation was acquired and 
envisioning a much larger project, this project under the 
Dakota Water Resources Act would be 140 percent mitigated, 40 
percent net gained in terms of federally owned wildlife water 
wetlands areas.
    Another feature, that leads into my second point, Canada. 
The Canadian point. Transferring water between basins. I don't 
know a better way to address that than put the water in a pipe, 
treat it to drinking water standards to make certain that there 
is no inappropriate interbasin transfer. What more can you do 
than make it tap quality, drinkable quality as we move the 
water between the basin? Prior to that ever occurring, there is 
a triple fail-safe further safeguarding Canada.
    First, this study has got to show that there is a need and 
that is the alternative that best meets the need. You will 
recall the track of the dry puddle that was the Red River now 
serving a community of 160,000 people. We have--it varies. If 
that were to occur today, we would be in a state of crisis. I 
don't know what we would do. So that is the first part of the 
triple fail-safe. It has to be determined that that's the most 
logical alternative.
    Second stage of the fail-safe, the Secretary of the 
Interior has to make the decision that that's how it should 
proceed. Third stage of the fail-safe, no construction can 
start until it's deemed to be fully compliant with the Boundary 
Waters Treaty Act. We have heard about the IJC and their role 
in making that type of technological evaluation of that 
determination. We are not proposing to abrogate any treaty. We 
will completely comply with the treaty, and drinking water 
standards after treatment assures that we can do that.
    Many parts of Minnesota, especially the Moorhead community 
and the other side of the Red River Valley, they think this is 
very interesting proposition because they face some of the same 
water shortage problems that we do.
    Third issue, cost. I thought it was very well outlined by 
Commissioner Martinez. Six hundred and forty million dollars 
authorization we are talking about here. Recognize that we are 
basically reformulating existing reauthorization and shrinking 
it, shrinking the liability of the Federal Government. Two 
hundred million dollars of it fully consistent with the Federal 
trust responsibilities. Not reimbursable but fully consistent 
with the Federal trust responsibilities established in the 
treaties with these tribes now more than 100 years ago. We put 
them on bad ground and then we flooded it. It's about time we 
at least give them drinking water and reasonable quality water 
through this infrastructure mechanism.
    Second part, $200 million, water west to east. Again that's 
subject to the determination of the needs, subject to the 
clearance with Canada. If it is constructed, fully reimbursable 
for the facilities used. The third, $200 million, MR&I, 75-25 
cost share. We are taking the promise and the dream of 
irrigation, deauthorizing it for what is our forward looking 
water needs, municipal, rural and industrial. We believe that 
this project makes sense.
    Mr. Chairman, you have advanced some interesting ideas on 
how we ultimately structure funding. We are happy to work with 
you on that. We will get back to you with whatever feedback as 
you may want.
    I would note that this is one of the projects of the Pick-
Sloan project. There were lots of them in several different 
states. I think it is a bit of a heavy burden for us if we are 
suddenly going to impose a brand new funding type of 
requirement on this one different from all of the others of the 
Pick-Sloan project. But you are the chairman and we are 
interested in talking. In fact--but I am done talking now.
    Thank you very much for your attention in this matter.
    [The prepared statement of Mr. Pomeroy follows:]

Statement of Hon. Earl Pomeroy, a Represemtative at Large, North Dakota

    Mr. Chairman and members of the Subcommittee, I want to 
thank you for holding this hearing on the Dakota Water 
Resources Act of 1999. I appreciate the opportunity to express 
my strong support for this legislation--H.R. 2918 in the House, 
and its companion, S. 623 in the Senate.
    With the construction of the main stems dams along the 
Missouri in the 1950s that flooded over 500,000 acres of land 
and disrupted life for two tribal nations in North Dakota, the 
state was promised a significant water project. Unfortunately, 
over 40 years later, the commitment has yet to be realized. The 
bill before us today will settle the longstanding obligation of 
the Federal Government to the state in a manner that will 
address the most urgent needs in the state--water quality and 
supply for our communities. This bill represents the 
culmination of broad bipartisan support among the state elected 
leaders, the tribes, environmental organizations and the 
state's congressional delegation. The Act is a fair and 
reasonable closure to the commitment by the Federal Government 
to the state of North Dakota.
    It has been a little over a year since I last appeared 
before the Subcommittee on the, Dakota Water Resources Act. 
Since then, we have made several key changes to the bill. In 
addition to technical clarifications, the vast majority of 
these changes represent the culmination of an agreement reached 
between the state of North Dakota and the Administration which 
led to the Administration's support of the bill. I want to 
highlight the key items of agreement incorporated into this 
revised version.

MODIFICATIONS/IMPROVEMENTS

    First, this improved Dakota Water Resources Act provides 
$200 million in funding for statewide municipal, rural and 
industrial (MR&I) program, a $100 million reduction from the 
previous legislation. Further, the bill clarifies that if an 
MR&I revolving loan fund is established, the funds will be 
treated as Federal funds, therefore requiring compliance with 
Federal laws such as the National Environmental Policy Act 
(NEPA). Additionally, the bill removes the $40 million in 
authorized funding for the replacement of the Four Bears Bridge 
across an arm of Lake Sakakawea on the Ft. Berthold Indian 
Reservation.
    The bill also includes modified language to strengthen 
provisions to ensure the interest of Canada are met. Prior to 
the construction of any water delivery system to deliver 
Missouri River water into the Hudson Bay Basin, the Secretary 
of Interior, in consultation with the Secretary of State and 
the Administrator of the Environmental Protection Agency, must 
determine that adequate treatment of the water can be provided.
    Further, the state of North Dakota will be required to pay 
a pro-rata share of the operation, maintenance and replacement 
(OM&R) costs on existing principle supply works, including 
associated mitigation, based on a percentage of capacity use. 
Secondly, the state would pay 100 percent of OM&R on all new 
facilities with the exception of facilities required to meet 
treaty obligations or those for compliance with reclamation 
law. Further, the state would be required to pay for all energy 
costs to authorized facilities.
    Finally, the bill removes the provision which linked the 
full funding of the Natural Resources Trust to the completion 
of the Red River Valley project.
    Mr Chairman, the Dakota Water Resources Act today 
represents a broad consensus among various interests across the 
state of North Dakota and the Administration. I believe that 
the changes made further improve the bill and will ensure that 
we are able to meet North Dakota's future water needs.
    While changes have been made to the bill, one thing has not 
changed and that is the need for this legislation. The 
legislation is needed to help the state and Indian tribes meet 
their current and future water quality and supply needs.

ADDRESSING THE CONCERNS

    I want to touch briefly on some of the arguments put 
forward by opponents of the legislation.

Environmental

    First, let me address the environmental concerns. Some have 
claimed that the Dakota Water Resources Act will result in the 
destruction of wetlands. I want to assure the Subcommittee that 
this is not true.
    The environmental plan implemented under the Garrison 
Diversion project is one of the most comprehensive in the 
nation. The state of North Dakota has been, and continues to 
be, very sensitive to this need and instrumental in helping 
implement it. Our accomplishments to date have been well 
recognized by the conservation community, sportsmen and outdoor 
enthusiasts alike. Garrison Diversion's fish and wildlife 
mitigation and enhancement plan has created or enhanced over 
70,000 acres of habitat throughout North Dakota's prairie 
pothole region, specifically for fish and wildlife purposes. 
The mitigation plan has not only offset habitat losses but it 
has exceeded the requirements by creating new wildlife habitat. 
To date the project has been mitigated to 140 percent, 
resulting in a net gain for the environment.
    One of the best examples is the 33,000 acre Lonetree 
Wildlife Management Area. Lonetree was initially envisioned as 
the site for a dam and reservoir, however, due to environmental 
concerns, we are deauthorizing that project feature. With 
passage of this bill, Lonetree will be solidified as a 
permanent wildlife management area. Today, outdoor enthusiasts 
from all over the nation come to hunt, hike and fish on this 
beautiful grassland. Additionally, the Kraft Slough wildlife 
area is nearing completion and over 90 percent of the area is 
in public ownership.
    Another important environmental aspect of the project is 
the continuation and expansion of the resources trust fund, a 
fund that has been accepted by environmental organizations and 
landowners alike. Many wetland projects have been implemented 
through cooperative efforts with farmers, ranchers, various 
state and Federal agencies and private organizations using a 
combination of cost share and grants. The Dakota Water 
Resources Act provides additional funding and authorities for 
the trust fund allowing more cooperative projects which will 
benefit both landowners and our prairie wetlands.
    Further, the Act will provide many additional benefits to 
fish and wildlife. Most significantly, the bill deauthorizes 
all federally subsidized irrigation, eliminating the potential 
impact to wetlands caused by underground drainage systems. 
Further, the Act eliminates any direct transfers of water 
between basins which could have caused a transfer of biota to 
our Canadian neighbors.
    Our past accomplishments and the potential future 
environmental benefits have helped gain the strong support of 
environmental groups in North Dakota. The North Dakota Wildlife 
Federation, representing many sportsmen and women from 
throughout the state, and the North Dakota Chapter of the 
Wildlife Society, representing hundreds of professional 
biologists, support the Dakota Water Resources Act. In fact, 
wildlife enhancement is added as a project feature under the 
bill.

International Concerns

    Concern has been raised by Canada that the Dakota Water 
Resources Act weakens the protections to the country that were 
included in the 1986 Reformulation Act. First, it is important 
to note that the 1986 Reformulation Act, which Canada 
supported, specifically authorized the transfer of water 
through open canals to the Hudson Bay drainage. Further the 
1986 Act provided that water would not be delivered until a 
determination has been made that such delivery would be in 
compliance with the Boundary Waters Treaty Act.

Cost

    Finally I want to address the cost issues related to the 
project. The reformulated, refocused project which shifts focus 
from irrigation to municipal, rural and industrial water 
supplies reduces the estimated cost of the project by over $600 
million.
    A total of $200 million is provided for statewide MR&I to 
meet the highest priority needs identified across the state. 
The bill continues the 75/25 cost share established under the 
1986 Act and allows the state to convert some of the grants to 
loans in areas where communities have the ability to repay. 
Under this scenario we will be able to stretch the limited 
Federal dollars further in order to reach more people who need 
a quality, affordable water supply.
    Another major component of the legislation is the 
commitment to the Indian reservations in North Dakota. The 
Garrison Reformulation Act of 1986 provided for MR&I funding of 
$20.5 million for the Standing Rock Sioux, the Three Affiliated 
Tribes, and the Spirit Lake Nation. At the time, it was 
understood this number was not representative of their needs, 
but rather a starting point. Today, we recognize this was 
wholly inadequate level of funding as the unique and pressing 
needs of the reservations are much greater. The Dakota Water 
Resources Act will provide $200 million for fulfilling the 
clear Federal trust responsibility to provide for their 
critical water needs.
    Finally, I want to address $200 million authorization for 
meeting the water supply needs of the Red River Valley. In 
keeping with long-standing Bureau of Reclamation policy and 
law, municipal and industrial water delivered to beneficiaries 
through the project facilities will be repaid, with interest.
    Significant investment has been made to date in this 
project, however, we have yet to get the full return on that 
investment. The bill before us today will ensure that we are 
able to take full advantage of that investment to meet the 
future water needs of the state. The Dakota Water Resources Act 
is fiscally responsible, treaty-compliant and environmentally 
sound. Mr. Chairman, while we believe a commitment was made to 
North Dakota which has gone unfulfilled, it is the sheer weight 
of the needs of the people of North Dakota for clean, safe, 
affordable water which drives this legislation. The resource is 
available, the need is significant and this legislation is the 
answer. This is a fair and reasonable fulfillment of the 
commitment by the Federal Government to the state of North 
Dakota.
    In closing, I would like to submit for the record a copy of 
the testimony of the Chairman of the Garrison Conservancy 
District, Norm Haak.

    Mr. Doolittle. Thank you. I hope we will talk. It is our 
desire to be helpful and, frankly, we think some more talking 
is in order. So we will proceed on that basis. Let me just ask 
the commissioner. Commissioner, I am from California. We are 
always grateful to have reservoirs. It is only in North Dakota 
where I have ever heard it referred to as a permanent flood, 
like it was something that was a gross disadvantage.
    Mr. Martinez. I guess it makes a difference what kinds of 
lands you flood. If what you are flooding is prime lands that 
are available, that's where the difference lies. I guess the 
position that North Dakota has been taking, especially with 
Indian lands, is it just turned out that the Federal Government 
made a conscious decision to flood out the best lands in the 
country, in that part of the world. So it just sometimes they 
are welcome and sometimes not in terms of reservoirs.
    Mr. Doolittle. They had been substantial flood control 
benefits, even for North Dakota, have there not?
    Mr. Martinez. I would not argue with that. There has been 
for North Dakota and other states downstream.
    Mr. Doolittle. There is $164 million provided for in the 
legislation. That's authorized for non-Indian irrigation. 
Commissioner, how high is it anticipated or contemplated in 
that legislation that beneficiaries would pay for that 
irrigation, and what are the standards used?
    Mr. Martinez. Mr. Chairman, that goes beyond my expertise 
own this project. I will get you an answer for the record on 
that, if I may.
    Mr. Doolittle. That's fine. Generally speaking for 
irrigation, for irrigators, it's based on the ability to pay. 
Isn't that the standard that normally applies, rate payments 
based on the ability to pay for the irrigators?
    Mr. Martinez. For the irrigators, if their ability to pay 
is insufficient, then costs are shifted to the power users.
    Mr. Doolittle. What is the interest rate for the 
irrigators?
    Mr. Martinez. Well, my understanding is they would pay 
without interest.
    Mr. Doolittle. On the irrigation there is no interest, 
right. That's why they call it the irrigation subsidy, I guess. 
If it's not fully reimbursable by irrigation interests, then 
you indicated, I think, that it was the power users that made 
up the difference. Is that correct?
    Mr. Martinez. Ultimately, that's my understanding.
    Mr. Doolittle. That's my understanding, too, normally. But 
if the power revenues indeed pay for the remaining costs, then 
I would draw your attention to section 6, subparagraph C of 
page 14, lines 5 through 15. That refers to no increase in 
power rates or repayment methodology. It just seems to me this 
is one of those very confusing things about this legislation 
because you were testifying and I believe that you believe 
this, that it would be made up for by the power users, but then 
there is a provision in the bill that prohibits that.
    Mr. Martinez. Maybe my project sponsors--I will get you an 
answer for the record.
    Mr. Doolittle. Sure. Does anyone wish to respond to that? 
It's page 14, lines 5 through 15.
    Mr. Martinez. I will be glad to provide an answer to that.
    Mr. Doolittle. Okay. All right. Let me just ask the next 
question. Now, is Indian irrigation reimbursable?
    Mr. Martinez. The intent is not to have any reimbursement 
on the parts of the Indians.
    Mr. Doolittle. I understood that to be true with reference 
to the MR&I, but does that also intend to be true with 
reference to the irrigation part of it?
    Mr. Martinez. That's been my understanding, that's correct.
    Mr. Doolittle. Is it your understanding that the $200 
million commissioned for the Red River Valley water supply 
project would be reimbursable?
    Mr. Martinez. It's my understanding that if a project is 
found feasible, that it would be reimbursed 100 percent with 
interest.
    Mr. Doolittle. There are in section 2, page 5, lines 23, 24 
and 25, it states, quote, ``All costs of construction, 
operation and maintenance in the replacement of water treatment 
facilities authorized by this Act and attributable to meeting 
the requirements of the treaty, Boundary Water Treaty in 1909, 
shall be nonreimbursable.''
    Mr. Martinez. My understanding is that part of the project 
that is required to meet treaty obligations or the operation 
and maintenance that is required to meet treaty obligation is 
treated in the Act as a cost of the Federal Government and 
therefore nonreimbursable.
    Mr. Doolittle. That would make it nonreimbursable.
    Mr. Martinez. That portion of the cost attributed to the 
United States having to meet treaty obligations.
    Mr. Doolittle. Do we have any idea what portion of the cost 
the nonreimbursable portions represent?
    Mr. Martinez. We don't have those figures because as it 
turns out the needs assessment and the has yet to be completed. 
It might turn out that the project is not feasible and 
therefore none of that $200 million would be expended.
    Mr. Doolittle. Don't we have to know, though? If we are 
going to authorize all of this, wouldn't we have to have a 
knowledge of what those costs are going to be in the event that 
you determine that it's feasible? Because that would affect, 
wouldn't it, the total cost of the project?
    Mr. Martinez. My second voice tells me that's an 
appropriation issue. But I think that you raise a valid 
question that the Committee has to consider.
    Mr. Doolittle. I just bring that up because there are 
representations being made how much money we are saving or the 
costs of this are being reduced from what it used to be. We 
find it very difficult, our Committee staff and I, as we look 
at this, it seems very confusing--it's very, very difficult to 
read through this legislation and really figure out what is 
going on because there seems to be claims that are made and 
then contradicted by the actual language of the bill.
    Mr. Martinez. Mr. Chairman, I grasp the point of your 
question. On the one hand, you have an argument that it is 
going to reduce total cost and then you have the position that 
it might have potential expenses and costs because of the 
treaty. I want to be responsive to your question and I will 
provide a response on the record.
    Mr. Doolittle. Thank you. I will recognize Mr. Miller for 
his questions.
    Mr. Pomeroy. Mr. Chairman, I didn't want to interject 
myself in the discussion with your own questions, but I would 
just assert that it's also possible that the line of 
investigation preliminary to the construction of the moving of 
water west to east would determine there was no interbasin 
transfer and for purposes of incurring additional costs may 
very well not be additional costs, but the legislation does 
contemplate a rather straightforward fashion. If it's a Federal 
Government to a Federal Government issue, dimension presented, 
that is a Federal cost.
    Mr. Doolittle. Well----
    Mr. Martinez. Mr. Chairman, if I may, this is not unusual. 
This hapens on interstate rivers. We have this issue on the 
Colorado River and some other rivers.
    Mr. Doolittle. I think the issue is whether this is or 
isn't reimbursable and what that amounts to.
    Mr. Miller, do you want to go ahead?
    Mr. Miller. Thank you, Mr. Chairman. I think that your 
questions are important in terms of the consideration of this 
Committee. Just a couple of remarks here. One, obviously I 
think this delegation has struggled with this project for some 
time trying to meet what anyone who is familiar with this 
realizes is a very, very legitimate need. None of us would want 
our constituents to be put in the same situation as we have 
here with respect to their potable water supply and recognizing 
the need to bring that about. I think this legislation is a 
substantial improvement over what we have seen in the past. I 
think that the questions that the chairman raised are important 
and we do look forward to your responses to that.
    I also--am I correct in making the assumption that I assume 
that the Indian/non-Indian projects would go along--I recognize 
this is all a matter of appropriations, but they would go along 
in a contemporary fashion with one another; is that correct?
    Mr. Pomeroy. That's the plan, absolutely. We have not in 
our collaborative discussions leading to the draft of the 
legislation finalized discussions on ranking of the MR&I needs 
that we have identified. But you can see the fact that where 
the water needs of the entire state, which are very 
significant, we have also recognized that an equal standing of 
our commitment of the four Indian reservations.
    Mr. Miller. You would suggest that----
     Mr. Pomeroy. My contemplation, Congressman, is that they 
would be absolutely funded concurrently and equitably. Not one, 
for example, state MR&I placed at a higher priority than the 
Indian MR&I given the available dollars.
    Mr. Miller. I am probably showing my age, but when we did 
the reformulation in '86 that was the clear understanding that 
that's how it would happen in the sense that for many years the 
tribes had been used as a rationale to try to get money from 
the Congress except they weren't getting the benefits. One of 
the theories of the reformulation, and certainly in our 
discussions in the final agreements, were that they would--
these things would move alongside of one another in the future, 
not one waiting for the other to be finished. I just hope 
that's envisioned in this project.
    Mr. Pomeroy. It most certainly is, Congressman. We consider 
the verdict was an absolute champion for native Americans. The 
problem was we plugged in a woefully inadequate figure relative 
to Indian MR&I. Twenty million dollars. All been spent. We hit 
that cap quickly.
    Mr. Miller. Some of the concerns that have been raised with 
respect to the inner basin, the Canadian ambassador visited me 
yesterday. For the moment, I think some of those concerns seem 
to be addressed. Mr. Koland, is it your responses here? I just 
want to say that I consider those to be serious issues. In the 
San Francisco Bay Area, we are struggling with invasive species 
and all of the problems. It's not a minor problem once it is 
set upon you in terms of dealing with it.
    Again, you both suggested that, one, that you think you 
have solved that, and, two, that the project doesn't go forward 
unless people are satisfied to that extent. I would hope that 
that clearly is the intent and the situation here because the 
cost of that happening is just unbelievable as we see various 
communities and basins, watersheds now struggling with invasive 
species that we ought not to set anything in motion that would 
suggest that that might happen.
    Mr. Pomeroy. We make an important change over existing 
authorization which said that construction can proceed while a 
determination relative to the Boundary Water Treaty Act can be 
made. Under the Dakota Water Resources Act we say no 
construction--this is after determination of need--yet if the 
Secretary of Interior says I would rather be done, no 
construction begins until the treaty compliance is determined. 
I think that you make an important point in that regard.
    Mr. Miller. Thank you for your presentation. Again, I would 
hope that the Bureau would be able to supply us some responses 
to the chairman's questions. Thank you.
    Mr. Doolittle. Thank you. Mr. Pombo is recognized.
    Mr. Pombo. Thank you. I know that the chairman had 
additional questions and I will yield my time to the chairman.
    Mr. Doolittle. Thank you. Commissioner, in your testimony 
you suggest that $200 million for the MR&I system would be a 
loan, that the projects original authorization interest rates 
for the constructed facilities, and the second $200 million 
would extend the current grant authorization to address other 
statewide MR&I needs. I wonder if you could explain why this 
section authorizing these provisions authorizes the Secretary 
also to convey to the State of North Dakota on a 
nonreimbursable basis the funds authorized, which are $400 
million?
    Mr. Martinez. Mr. Chairman, if I may, I would defer to my 
staff member here who has worked on it on a day to day basis, 
to respond to your question, if I may.
    Mr. Doolittle. Just step up for a minute. For the record, 
state your name, please.
    Mr. Richardson. Steven Richardson. The measure calls for 
$200 million to refund the grant portion in the 1986 agreement 
for the MR&I. That's the matter that is under the cost share 
formula of 75-25. The other $200 million for the non-Indian 
MR&I has to do with the Red River North study, which is fully 
reimbursable.
    Mr. Doolittle. I'm sorry, has to do with what?
    Mr. Richardson. This section has to do with possible 
construction of facilities for water going to the Red River of 
the North frm the Missouri River basin. Those facilities have 
not been constructed that have to be--meet before--I believe 
all of the preconditions have been stated to when they would be 
constructed. If--when and if those facilities would be 
constructed, that $200 million would be reimbursable.
    Mr. Doolittle. But the legislation it speaks to the funds 
authorized. So it seems to me----
    Mr. Richardson. Give me a moment, Mr. Chairman, and I will 
go to the--Mr. Faber, the counsel, I am going to let him give 
you the cite.
    Mr. Faber. Do you have copy of the underlying '86----
    Mr. Richardson. Yes, sir, I do. I will go to it.
    Mr. Faber. If you look to section 7.
    Mr. Richardson. Can you give me a page?
    Mr. Faber. In the page designations I have, section 7 
starts on page 15. And the language in question is on page 16 
in subsection 3. That subsection----
    Mr. Richardson. Yes, this is where it is very confusing.
    Mr. Faber. That's the problem. This is a section that is 
proposed to be amended here yet it has language in there that 
would suggest that this may be nonreimbursable.
    Mr. Richardson. I believe that the key citation, if you 
read in the third line, section 10(B)(1), is the matter that is 
not. But it is very difficult and we--if--the way that this 
happened and this very draft that we referred to was developed 
because of questions just like that, how does this all fit 
together with existing law. This is an attempt, but the cross 
citation still lacks some work. We will be glad to provide 
whatever clarity that we can.
    Mr. Doolittle. Even the experts admit this is confusing.
    Mr. Richardson. We would certify that, sir.
    Mr. Doolittle. I think this legislation needs some work.
    Mr. Pomeroy. Mr. Chairman, having been involved in the 
drafting, I don't claim this was a perfect work. This is not a 
Mount Sinai product. The fact of the matter is we have got a 
'65 Act amended in '86, and now we amend it in this Act. The 
problem is we never completed the earlier version nor could we 
start brand new. So it has been a dickens of a drafting 
challenge. All I can do is absolutely assure you there is no 
intention through this inherently confusing nature of the 
undertaking to do any trickery relative to reimbursable, 
nonreimbursable, any of the rest of it. We would be only too 
happy to accept editing, drafting ways to make it clear.
    Mr. Doolittle. Does somebody want to state what the intent 
really is? Is it to have all $400 million be nonreimbursable or 
what is the----
    Mr. Richardson. Mr. Chairman, if you refer on the same 
draft that Mr. Faber is looking at, on page 23, section 
10(B)(1)--and there are 5 or 6 other Bs that appear on that 
page. But the reg statement begins on line 18. The attempt I 
believe was to make nonreimbursable that portion described as 
municipal and industrial water supply and the $200 million.
    Mr. Doolittle. So it's that and not the second $200 
million?
    Mr. Richardson. That is correct. That is our understanding.
    Mr. Doolittle. Mr. Pomeroy, is that your understanding?
    Mr. Pomeroy. Yes, sir.
    Mr. Doolittle. I only have, Commissioner, one other 
question at this point. That is under the '86 Reformulation 
Act, there is a figure used, $80.535 million, authorized to 
carry out the resources trust and other provisions. This number 
seems quite specific even though the legislation doesn't 
indicate how it should be spent. I guess my questions would be 
has it all been spent and what has it been spent on?
    Mr. Martinez. I will provide you a detailed answer for the 
record on that.
    Mr. Doolittle. Let me just proceed. The environmental 
community, I understand, in North Dakota seems to accept this 
project. Is it correct that we are setting up an organization 
that the environmental community will jointly administer with 
$25 million of Federal dollars; is that your understanding?
    Mr. Martinez. Excuse me, I was listening----
    Mr. Doolittle. Sure. I was just saying it does, in fact, 
that this bill set up something where the environmental 
community will jointly administer $25 million of Federal money?
    Mr. Martinez. It's my understanding it will be administered 
by the Federal Government.
    Mr. Doolittle. I thought in the bill it appears that there 
is a joint responsibility with the environmental community. We 
can perhaps give you----
    Mr. Pomeroy. Mr. Chairman, maybe I could assist in that. 
The wetlands trusts is an existing entity administering funds. 
This provides an additional appropriation for that existing 
entity. And changes the name to----
    Mr. Doolittle. There is a joint administration in that 
trust, is there not, made up of--I think it refers to the quote 
unquote, environmental community. And then the governor has 
appointees and the Federal Government; is that right?
    Mr. Pomeroy. It's my understanding. I actually have Dave 
Sprynczynatyk, the state engineer from North Dakota seated 
immediately behind me who could give you very technology 
specific answers to the questions if you like. He has not been 
sworn in yet, but he would be very happy to respond.
    Mr. Doolittle. I think that you have roughly confirmed our 
understanding. I don't know that we need to get into the 
precise specifics of it at this point. I just wanted to observe 
that it appears we have already spent more than $80 million for 
Lone Tree for environmental purposes.
    Mr. Pomeroy. Initially, Mr. Chairman. Of course, it wasn't 
our notion that that would be serving the role it now serves.
    Mr. Doolittle. Yes, I understand that. That was not your 
desire, I recognize that. And this legislation though 
perpetuates this by having the Federal Government pay the O&M 
costs in perpetuity, right? Is that right, Commissioner, as you 
understand it, where the Federal Government picks up those 
costs forever?
    Mr. Martinez. That's my understanding.
    Mr. Doolittle. Mr. Pomeroy, I know that you are not 
thrilled about this, but it appears that more than one-sixth of 
the Garrison project costs is for environmental issues. Is that 
your understanding?
    Mr. Pomeroy. Again, some of that is a result of mitigation 
that was commenced envisioning a much larger irrigation 
dimension. So now that the irrigation has fallen off, we have a 
project that is perhaps the single most generously mitigated 
project in the country at 140 percent.
    Mr. Doolittle. Yes, and I am sure the environmental 
community would like that to be the standard for the rest of 
the United States.
    Mr. Pomeroy. Some of them are still raising some questions 
about this one.
    Mr. Doolittle. Yes, whether it has gone far enough.
    Mr. Pomeroy. But the North Dakota ones, including the 
Wildlife Society, which has professional biologists and a 
variety of different professions, these are the local folks 
that really know this and know how it all fits together in 
North Dakota and it has their enthusiastic support. I think 
that is an indication that we have achieved some acceptable 
measure of balance with significant components of the 
environmental community.
    Mr. Doolittle. I would just like to throw this out, Mr. 
Pomeroy. We have a lot of money being spent in California, the 
CAL-FED process. And then the Committee asked for months ago, 
over a year ago, which we finally just got, an environmental 
cross-cut budget that takes all moneys being spent to improve 
the environment, whether they are coming from the State or 
Federal Government or local government or different--Corps of 
Engineers versus the EPA, all of these different entities. It 
really is revealing to show just what is being spent from which 
source. I would just encourage you to seek that out because I 
think it would give us a much better handle as to what is going 
on here. There is no question about what this has been 
overmitigated. I think it would be useful to the Committee as 
it seeks to assist you in drafting legislation.
    Mr. Pomeroy. I would be very interested in that 
information.
    Mr. Doolittle. At this particular time the chair recognizes 
Mrs. Napolitano for her questions.
    Mrs. Napolitano. I really didn't have any questions other 
than that I have met with the delegation yesterday and I have 
been able to ask most of my questions. However, my take of this 
legislation is really consolidation of something that you need 
done. You started it, you have had piecemeal funding. Now, you 
want to kind of get it done, am I correct?
    Mr. Pomeroy. That's absolutely correct.
    Mrs. Napolitano. You are willing to mitigate the concerns 
of both the committing site and also of the Governor of 
Minnesota and move forward with it and--not move forward, 
rather, until they are----
    Mr. Pomeroy. We have certainly addressed them very 
thoroughly. Minnesota concerns tend to be identical to Canada 
because they are concerned about this water. So we treated the 
tap water drinking quality, and we think that that addresses 
that concern and, in fact, gives the significant bonus to the 
Minnesota border cities that their water supply needs are being 
met as ours would be if this alternative would be the one 
executed under this legislation.
    Mrs. Napolitano. Thank you. I think the suggestion by the 
chair to do a consolidation fee where there is funding 
mechanisms would be a great idea. But I don't think any persons 
should be subjected to that kind of water. When I looked at 
that, I thought it was Pepsi.
    Mr. Pomeroy. Here is the water, here is the Pepsi, here is 
the coffee. It's just not right.
    Mrs. Napolitano. It is something that is unconscionable and 
I am very glad you brought it to us. Thank you. Thank you, Mr. 
Chairman.
    Mr. Doolittle. Mr. Simpson, just to confirm, you have no 
questions? Or if you do, I will recognize you.
    Mr. Simpson. No, Mr. Chairman, I don't have any questions, 
just to thank the delegation and Mr. Pomeroy for bringing this 
before us and meeting with me yesterday and talking to me about 
it. I agree that it is deplorable and is something that we need 
to address. Apparently, if we can address some of the drafting 
questions so that the legislation actually reflects what your 
intention is and makes it clear, then I think that will go a 
long way toward addressing some of the concerns here. Thank 
you.
    Mr. Doolittle. Thank you. Dr. Christensen, you are 
recognized.
    Mrs. Christian-Christensen. Thank you, Mr. Chairman. I 
don't have any questions either. I apologize for being late. I 
want to welcome the delegation also. I had the opportunity to 
meet and ask some questions earlier. The need is clearly 
demonstrated. There has been a lot of effort to try to work out 
some of the objections that have been raised. I trust they will 
be worked out through the satisfaction of all parties concerned 
and then we will have something that we can fully support.
    Mr. Pomeroy. We all found our visit with you very 
interesting, and sharing one thing, if anyone thought North 
Dakota and the Virgin Islands not having much in common, but 
you have abundant water immediately available yet you have 
serious drinking water issues on your island. We have these 
huge reservoirs right adjacent to terrible water quality 
issues. This Garrison diversion, now the Dakota Water Resources 
drive of the state will continue until we get the result. We 
simply can't quit. We have got the need and we have got the 
water. With your good help we will get the two of them 
resolved.
    Mr. Doolittle. Were you concluded, Dr. Christensen?
    Mrs. Christian-Christensen. Yes. I was going to just add 
that the only time I ever heard cisterns referred to outside of 
the Virgin Islands was in that visit.
    Mr. Doolittle. Thank you. Commissioner.
    Mr. Martinez. I want to apologize to you and the Committee 
for not being as responsive as I should be, but we will get 
into the record the information to help you make some logic out 
of this on what might be considered some confusing statements.
    Let me share with you this concern about Canada, and not as 
Commissioner of Reclamation but as a former state water 
engineer who represented a state on Senate compact commissions. 
The issue here goes, in my opinion, beyond the question of--two 
states had entered into an agreement, two countries had entered 
into an agreement as to the quality of water or under what 
conditions the quality of water should be at the boundary of a 
state or international boundary. Then it becomes the duty of 
the state or the water official state to be able to best 
utilize their water resources within their state to meet the 
needs of a developing area, moving one area up to another. As 
long as you meet those conditions of those treaties or the 
compacts at the state line, you are really getting into a point 
of trying to regulate how the states should be or should not be 
able to use this water. If it meets those conditions, it's gone 
one step too far.
    Do you see what I am trying to get at? The issue here is if 
the treaty conditions are met, does Congress want to get into 
dictating to a state how it should or should not use its water 
resources? I just raise that issue because these are--they are 
two issues but they are intertwined. I guess what the State of 
North Dakota is saying is there is a treaty in place. We will 
comply with that treaty and we are putting in some fail-safe 
provisions to make sure that we do.
    Mr. Doolittle. Your point would be that we shouldn't 
necessarily worry about that since that will be handled, 
however those things get handled between Canada and the United 
States.
    Mr. Martinez. That would be my advice.
    Mr. Doolittle. You run the commission--what did we call the 
commission between Mexico and the United States?
    Mr. Martinez. I served on the Colorado River Compact 
Commission representing the interests of the State of Mexico as 
a state engineer.
    Mr. Doolittle. We don't have something similar to this 
international joint commission in the southern border, do we?
    Mr. Martinez. The way that it's handled there is you have 
an international boundary and water commission which has a U.S. 
Representative that represents the interests of the United 
States.
    Mr. Doolittle. Does that go clear across the border between 
Mexico and the United States?
    Mr. Martinez. From California down into the Gulf.
    Mr. Doolittle. Well, I wouldn't want your water either. 
Obviously, the need is there. I do think there is some real 
issues about how this can be paid for. I know, Mr. Pomeroy, you 
are thinking water. You have been unfairly singled out since 
other fixed lawn units got a better deal in the past. I just 
think that dealing with the realities of today, I mean, there 
are a lot of the presuppositions that existed back then have 
changed. There is much more emphasis now on restraining the 
growth of Federal spending in order to keep the budget in 
balance and pay down the debt. There are a different set of 
priorities. Obviously, having decent water is a fundamental.
    This Committee will work with you, if you wish us to work 
with you, to try to figure this out. But I do renew my 
observation that most of the nitty-gritty work has not been 
done with this Subcommittee to meet our concerns. It has been 
with the administration, which is obviously a key component in 
anything that happens. But you must work with the Subcommittee 
in order for this process to move forward as it was intended 
to. Not you personally----
    Mr. Pomeroy. I understand, Mr. Chairman, perfectly clear. I 
would just say it is kind of a sequential thing. We wanted them 
here today saying they were in support. We really did and we 
worked hard to get that. But now, this is in the Subcommittee's 
court. And so in sequence we will be working mightily to try to 
address all of your issues. The only thing on this alternative 
funding sources and being singled out at Pick-Sloan that I 
would just throw out. We will really wrestle with whatever you 
want us to wrestle with. But let's say some might suggest 
looking at power revenues from the marketing agencies or WAPA 
in specific to address this. What we would find at that point 
is having addressed all of these Canadian issues, environmental 
issues, these other issues, is suddenly we have a new range of 
issues with western states saying you want to raise our power 
rates for your water project?
    We are going to have to chase all of those issues down. If 
we are a little less than enthused about that proposal, I 
suppose that I would just throw it out there. We are going to 
be working and talking and doing everything that we can, Mr. 
Chairman, to get down your point of consensus on this project 
as the next stage of this legislation.
    Mr. Doolittle. Thank you. I appreciate all of you making 
the effort to come here today. I know that you have worked 
very, very hard for a long time on this and hopefully it will 
come to a good conclusion.
    We will keep the record open for responses from you to such 
additional questions that we may propound and would hope that 
you would answer expeditiously.
    With that, this hearing is adjourned.
    [Whereupon, at 3:47 p.m., the Subcommittee was adjourned.]
    [[Additional material submitted for the record follows]
                  Statement of Governor Jesse Ventura

    Chairman Doolittle, Ranking Member Dooley, and members of 
the Subcommittee on Water and Power, thank you for the 
opportunity to submit written testimony on behalf of the State 
of Minnesota to voice opposition to H.R. 2918, the Dakota Water 
Resources Act of 1999.
    The State of Minnesota has opposed the Garrison Diversion 
project in North Dakota for decades and remains opposed to this 
bill. Although the bill has been modified over the years, it is 
still an interbasin diversion of water with potentially 
devastating environmental impacts on the waterways in the Red 
River basin. Until the many unanswered questions are resolved 
about these potential impacts, the State of Minnesota does not 
believe that this project should move forward.
    This project is in direct conflict with the State of 
Minnesota's water policy and with the diversion policies of the 
Great Lakes States. The experts in Minnesota tell me that there 
are several potential environmental costs to Minnesota 
resulting from an interbasin water diversion of this magnitude. 
For example, there is a potential for the transfer of pathogens 
and exotic species. The costs of treating such nuisances are 
enormous. I also understand that there are several unanswered 
questions about the impacts of biota transfers. To both 
Minnesota and Canada, it is important that a clear and detailed 
plan about the type and scope of biota treatment be provided 
before this project proceeds.
    As a Federal taxpayer, I am amazed and concerned about the 
cost of this project. At a time when Congress is trying to make 
spending decisions within tight spending caps, the prospect of 
spending more than $600 million on one water project in North 
Dakota seems almost absurd. Any minimal benefit that may be 
provided to Minnesota communities on the border who are in need 
of drinking water for economic development purposes are clearly 
outweighed by the tremendous potential environmental costs 
associated with this project. To the Minnesota Federal 
taxpayers, this project is a big loser.
    Finally, I object to the way that this project has moved 
forward without the input of several stakeholders who have 
consistently opposed this project. On June 30, 1999, I sent a 
letter to the White House requesting that Minnesota be included 
in the negotiations between the Administration and the North 
Dakota Delegation. Unfortunately, the State was not able to 
weigh in during these negotiations. Likewise, I understand that 
our northern neighbors in Canada feels that their concerns have 
not been fully heard. Missouri River states that are affected 
by this diversion also need to have a voice in this project.
    In order to provide fairness to these states downstream in 
the Missouri River Basin, I urge that this bill apply the water 
diversion process employed in the Great Lakes Basin to the 
Missouri River Basin. The Water Resources Development Act of 
1986 prohibits diversions of water from the Great Lakes Basin 
for use outside the Great Lakes Basin unless such diversions 
are approved by the Governor of each of the Great Lakes States. 
In order to give states downstream a fair say in what happens 
to their waterways, this same standard should be used.
    Clearly, a project as controversial as the Garrison 
Diversion should not continue to move forward behind closed 
doors. I understand that there will be a temptation to allow 
this bill to skirt the legislative process. For the State of 
Minnesota, too many unanswered questions remain about the 
Garrison Diversion. This issue needs to be fully debated out in 
the open. I urge you, Mr. Chairman, to help ensure that this 
bill does not move forward without the input and analysis of 
your entire Committee, and of the Congress as a whole.
    I appreciate the Subcommittee's attention to Minnesota's 
serious concerns about this bill. Thank you for the opportunity 
to share my State's views on this issue.
                                ------                                


Statement of Hon. Barbara Cubin, a Representative in Congress from the 
                            State of Wyoming

    Thank you, Mr. Chairman, for convening this important 
legislative hearing on H.R. 2541, to adjust the boundaries of 
the Gulf Islands National Seashore to include Cat Island, 
Mississippi; H.R. 1866, a bill to provide a process for the 
public to appeal certain decisions made by the National Park 
Service and the U.S. Fish and Wildlife Service; and H.R. 1864, 
to standardize the process for conducting public hearings for 
Federal agencies within the Department of the Interior.
    My remarks today will focus exclusively on H.R. 1866 and 
H.R. 1864. I would like to commend Chairman Hansen for his hard 
work in putting these two pieces of legislation together.
    In my state of Wyoming all of the land management agencies 
that fall under the Department of the Interior hold public 
hearings on a number of different issues that affect the 
constituents in the state.
    Wyoming has two major units of the national park: 
Yellowstone National Park and Grand Teton National Park. 
Decisions that are made effecting these parks have a great 
affect on neighboring communities, or gateway communities as 
they are called.
    It is essential that Wyoming constituents have the ability 
to engage land managers on questions they have and deserve 
straight forward answers to those questions.
    H.R. 1864 would simply standardize the procedures used by 
Federal agencies for public hearings. This mainly helps the 
public know what they can expect when they attend these 
meetings.
    Currently, the formats for these meetings are as varied as 
the number of land managers that conduct them.
    The public deserve some consistency in this regard and I 
believe H.R. 1864 is a common sense approach to making that 
happen.
    H.R. 1866 provides a process for the public to appeal 
certain decisions made by the National Park Service and the 
U.S. Fish and Wildlife Service.
    I wholeheartedly support this legislation. It is a very 
sensible way to ensure the public that their disagreements with 
decisions made by the National Park Service and the U.S. Fish 
and Wildlife Service can be resolved in a timely and 
responsible manner.
    Currently, the only recourse a person has who legitimately 
disagrees with a land management decision is to take that 
agency to court. Obviously that method is both timely and 
costly to the average citizen.
    The BLM and the U.S. Forest Service have adequate 
administrative processes whereas a person can go through 
certain procedures, pursuant to NEPA, to appeal a land 
management decision.
    There are, of course, problems with this process also, but 
for the most part it works.
    Mr. Chairman, I once again would like to commend your work 
on putting H.R. 1866 and H.R. 1864 before us today. I support 
both of these responsible pieces of legislation.
    I yield back the balance of my time.
    [GRAPHIC] [TIFF OMITTED] T4145.033
    
    [GRAPHIC] [TIFF OMITTED] T4145.034
    
    [GRAPHIC] [TIFF OMITTED] T4145.035
    
    [GRAPHIC] [TIFF OMITTED] T4145.036
    
    [GRAPHIC] [TIFF OMITTED] T4145.037
    
    [GRAPHIC] [TIFF OMITTED] T4145.038
    
    [GRAPHIC] [TIFF OMITTED] T4145.039
    
    [GRAPHIC] [TIFF OMITTED] T4145.040
    
    [GRAPHIC] [TIFF OMITTED] T4145.041
    
    [GRAPHIC] [TIFF OMITTED] T4145.042
    
    [GRAPHIC] [TIFF OMITTED] T4145.043
    
    [GRAPHIC] [TIFF OMITTED] T4145.044
    
    [GRAPHIC] [TIFF OMITTED] T4145.045
    
    [GRAPHIC] [TIFF OMITTED] T4145.046
    
    [GRAPHIC] [TIFF OMITTED] T4145.047
    
    [GRAPHIC] [TIFF OMITTED] T4145.048
    
    [GRAPHIC] [TIFF OMITTED] T4145.049
    
    [GRAPHIC] [TIFF OMITTED] T4145.050
    
    [GRAPHIC] [TIFF OMITTED] T4145.051
    
    [GRAPHIC] [TIFF OMITTED] T4145.052
    
    [GRAPHIC] [TIFF OMITTED] T4145.053
    
</pre></body></html>
